                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




          AGREED-UPON PROCEDURES FOR CORPORATION
              FOR NATIONAL AND COMMUNITY SERVICE
                      GRANTS AWARDED TO
                          AIDS United

                              OIG Report 12-12




                         Prepared by:

                 COTTON & COMPANY LLP
                  635 Slaters Lane, 4th Floor
                  Alexandria, Virginia 22314




This report was issued to Corporation management on July 24, 2012. Under the laws
and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
January 21, 2013 and complete its corrective actions by July 24, 2013. Consequently,
the reported findings do not necessarily represent the final resolution of the issues
presented.
                                   Office of Inspector General


                                 NATIONAL&:
                                 COMMUNITY
                                 SERVICE ~...-



                                         July 24, 2012



TO:            William Basi
               Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

               ~/~~
                  "'/0//-
               Stuart Axenfeld
FROM:
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 12-12, Agreed-Upon Procedures for Corporation for National and
               Community Service Grants Awarded to AIDS United, (AU)


Attached is the final report for the above-noted engagement. This agreed-upon procedure
engagement was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants and Government Auditing Standards, issued
by the Comptroller General of the United States.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by January 24, 2013. Notice of final action is due by July 24, 2013.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Rick
Samson, Audit Manager, at (202) 606-9380.

Attachment



cc:     Douglas Brooks, BOD Chair, AU
        Victor Barnes, Interim President & CEO, AU
        Bryan Wilt, CFO, AU
        Adam Edwards, Executive Assistant, JRI
        Douglas Hilton, Acting CFO, CNCS
        Claire Moreno, Audit Liaison, CNCS
        Michael Gillespie, Partner, Cotton & Company LLP
                                OFFICE OF INSPECTOR GENERAL
                               AGREED-UPON PROCEDURES FOR
                       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                    GRANTS AWARDED TO
                                        AIDS UNITED


                                                         CONTENTS


Section                                                                                                                     Page

Executive Summary........................................................................................................    1

Independent Accountants’ Report on Applying Agreed-Upon Procedures ......................                                    5

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs ............................                                8

Schedule A: Schedule of Claimed and Questioned Costs
            Award No. 09NDHDC006 ..........................................................................                  9

Schedule B: Schedule of Claimed and Questioned Costs
            Award No. 10SIHDC001 ............................................................................ 10

Exhibit B: Compliance Results ....................................................................................... 11

Appendices

A: AIDS United’s Response to Draft Report
B: Corporation for National and Community Service’s Response to Draft Report
C: Agreed-Upon Procedures for Social Innovation Fund Awards
                                    EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Cotton & Company LLP to perform agreed-upon procedures
(AUPs) to assist the OIG in grant cost and compliance testing of Corporation-funded Federal
assistance provided to AIDS United (AU).

SUMMARY OF RESULTS FOR AMERICORPS AWARDS

As a result of applying the procedures, we questioned claimed Federal-share costs of $33,593
and an education award of $5,350.

Participants who successfully complete terms of service under AmeriCorps grants are eligible
for education awards and, in some cases, accrued interest; both are funded by the
Corporation’s National Service Trust. AmeriCorps members may also be eligible for childcare
benefits funded by the Corporation. As part of our AUP and using the same criteria used for
AU’s claimed costs, we determined the effect of our findings on education awards, accrued
interest, and childcare benefits. Detailed results of our AUP on claimed costs are in Exhibit A,
Consolidated Schedule of Claimed and Questioned Costs, and the supporting schedules.

AU claimed unemployment insurance costs for its members but required its members to sign
forms, which stated they were ineligible for unemployment insurance. As discussed in Finding
3a., we questioned $14,456 of costs claimed by AU for these expenses.

SUMMARY OF RESULTS FOR SOCIAL INNOVATION FUND AWARD

As a result of applying the procedures, we questioned claimed Federal-share costs of $361,836.
Our observations during fieldwork revealed deficiencies in several facets of the program.

      AU calculated Social Innovation Fund (SIF) indirect costs using the full amount of
       subawards. However, indirect costs can only be applied to the first $25,000 of
       subawards made to each of AU’s 10 SIF subgrantees. This incorrect calculation
       resulted in overstated Federal indirect costs of $69,382. In addition, AU limited the
       Federal share of indirect costs to 5 percent of total Federal costs, or 5.26 percent of total
       direct Federal costs instead of AU’s 10.5 percent Negotiated Indirect Cost Rate
       Agreement (NICRA) rate. As discussed in Exhibit B Finding 2, we questioned $69,832.

      AU awarded SIF subgrantees a fixed administrative fee of 5 percent of total Federal
       costs, although the final Notice of Funds Availability (NOFA) and SIF Cooperative
       Agreement Terms and Conditions required NICRAs for the subgrantees. As discussed
       in Exhibit B Finding 2b., we questioned $13,570.

      AU and its subgrantees did not have procedures to ensure that advances were
       disbursed in a timely manner. AU initially provided its SIF subgrantees with lump–sum
       cash advances at the beginning of the projects. After it learned that it was not permitted
       to advance funds to subgrantees, AU switched to a reimbursement method. AU’s
       September 30, 2011 Federal Cash Transaction Report (FCTR) showed that cash
       drawdowns equaled Federal expenditures; the expenditures included advances from its
       SIF subgrantees to subcontractors. One of its subgranteees provided advances of
       $93,816 to subcontractors in March 2011; however, the subgrantee did not require its
       subcontractors to submit financial reports summarizing expenditures until September

                                               1
       2011. Further, financial reports submitted were only spreadsheet summaries of
       expenditures that did not include details, such as dates subcontractors incurred
       expenditures. A second subgrantee provided advances of $74,500 in March 2011 and
       advances of $36,000 to subcontractors in October 2011. It did not require subgrantees
       to provide reconciliations of budget-to-actual expenditures until the end of the grant year,
       and had not determined what supporting documentation it would require its
       subcontractors to submit to them.

      AU misinterpreted SIF regulations and improperly modified its SIF subgrantee
       agreements. It included a condition in its original subgrant agreements that required
       the subgrantees to provide a 50 percent cash match and required the match to be
       received by the end of each 12-month funding period. However, it subsequently
       amended its subgrantee agreements and revised the wording of its matching funds
       condition. The revised condition stated that AU’s subgrantees were required to
       provide matching funds in cash, and these funds were required to be expended by
       the end of the three-year grant period. If AU approved an extension, the grant period
       could be extended for one to two additional years for total of five years. This change
       did not however comply with the National Community Service Act which requires
       subgrantees to provide matching funds annually for each fiscal year and prohibits
       grantees from making payments in the remaining fiscal years of the subgrant period
       to any subgrantee that fails to provide matching funds for a fiscal year.

      AU’s record retention policy requires check registers, journal entries, paid accounts
       payable invoices, and accounts receivable invoices are required to be retained for
       period of seven years. This retention period may not be long enough for its Social
       Innovation Fund (SIF) grant, which has a grant period of five years. With a five-year
       grant period, AU could be required to retain records for eight years, calculated as its
       award period of five years plus three years after submission of the last FFR for the
       grant. Further, the retention period could increase to more than eight years if the
       grant period is extended beyond its original end date.

Detailed results for grant compliance, along with applicable recommendations, are in Exhibit B,
Compliance Results. The following is a summary of grant compliance testing results.

1. AU and its subgrantees did not comply with AmeriCorps requirements for National
   Service Criminal History Checks.

2. AU claimed unallowable indirect costs for itself and its SIF subgrantees.

3. AU and one subgrantee claimed unallowable Federal and match costs.

4. Subgrantee timekeeping systems did not comply with Federal requirements, and some
   timesheets were undated.

5. Subgrantees did not have adequate monitoring procedures to ensure subcontractor
   compliance with SIF regulations and the allowability of subcontractor claimed costs.

6. AU and its subgrantees did not have procedures to ensure that advances were disbursed in
   a timely manner.

7. AU’s subgrantee agreements included conditions that did not comply with SIF regulations.

                                              2
8. AU did not comply with certain AmeriCorps and SIF requirements.

AGREED-UPON PROCEDURES FOR SCOPE AMERICORPS AWARDS

We performed the AUPs detailed in the OIG’s Agreed-Upon Procedures for Corporation Awards
to Grantees (including Subgrantees) program, dated July 2011. Our procedures covered testing
of both AmeriCorps National, and American Recovery and Reinvestment Act (ARRA) grants:

                                                                                       Award
  Grant Program            Award No.         Award Period          AUP Period          Totals
  AmeriCorps National     09NDHDC006       08/01/09-07/31/12    08/01/09-09/30/11    $1,994,635
  AmeriCorps ARRA         09RNHDC008       08/01/09-05/20/10    08/01/09-05/20/10     $157,500

AGREED-UPON PROCEDURES FOR SCOPE SOCIAL INNOVATION FUND AWARDS

We performed the AUPs detailed in the OIG’s Agreed-Upon Procedures for Social Innovation
Fund Awards to Grantees (including Subgrantees) program, dated November 2011 (Appendix
C). Our procedures covered testing of one SIF grant:

                                                                                       Award
Grant Program              Award No.         Award Period          AUP Period           Total
Social Innovation Fund    10SIHDC001       08/01/10-07/31/15    08/01/10-09/30/11    $4,202,589

OIG’s AUP programs included:

      Obtaining an understanding of AU’s operations, programs, and operating site and
       SIF subgrantee monitoring processes.

      Reconciling AU’s claimed Federal and match grant costs to its accounting system.

      Testing grantee member files to verify that records supported eligibility to serve,
       allowability of living allowances, and eligibility to receive education awards.

      Testing AU’s compliance with selected AmeriCorps provisions and SIF award terms
       and conditions.

      Testing a sample of SIF subgrantees to selected SIF award terms and conditions.

      Testing AU’s claimed Federal grant costs and a sample of SIF subgrantees to
       ensure that:

          AmeriCorps and SIF grants were properly recorded in AU’s general ledger and
           SIF subgrantee records.

          Costs were allowable and properly documented in accordance with applicable
           laws, regulations, OMB circulars, grant provisions, award terms, and conditions.

We performed testing from October 2011 through February 2012 at AU’s office in Washington,
DC, and three SIF subgrantees:

                                              3
      Washington AIDS Partnership (WAP), Washington, DC
      Amida Care Incorporated (AC), New York, NY
      Christie’s Place Incorporated (CP), San Diego, CA

BACKGROUND

The Corporation

The Corporation supports national and community service programs that provide an
opportunity for participants to engage in full- or part-time service. The Corporation funds
service opportunities that foster civic responsibility and strengthen communities. It also
provides educational opportunities for those who have made a commitment to service.

The Corporation has three major service initiatives: National Senior Service Corps,
AmeriCorps, and Learn & Serve America. For fiscal 2011, Congress did not fund the Learn
& Serve America program and the Corporation does not anticipate that additional funding
will be enacted in the future. Grant activity previously funded under the Learn & Serve
America program will continue through fiscal 2013. AmeriCorps, the largest of the initiatives,
is funded through grants to states and territories with State Commissions on community
service, grants to states and territories without State Commissions, and National Direct
funding to organizations. Grantees recruit and select volunteers who must meet certain
qualifications to earn a living allowance and/or education awards.

The SIF grant program is a public-private collaboration created by the 2009 Edward M.
Kennedy Serve America Act. Its purpose is to create new knowledge for solving social
challenges in the areas of economic opportunity, healthy futures, and youth development.

AIDS United

AU is a national organization that fights against HIV/AIDS. Formed on January 1, 2011,
after a merger between the National AIDS Fund (NAF) and AIDS Action, its mission is to
end the AIDS epidemic in the United States. Through its Community Partnerships program
and targeted special grant-making initiatives, AU annually supports more than 400
grassroots organizations that provide HIV prevention, care, and support services to
underserved individuals and populations most impacted by the HIV/AIDS epidemic.

AU receives multiple awards from the Corporation, including AmeriCorps National, American
Recovery and Reinvestment Act (ARRA), and SIF grants. AmeriCorps grants are annual
awards to AU. AU uses these funds to recruit and select members who then earn living
allowances and education awards. The ARRA grant was used to fund the non-Federal
share of the AmeriCorps member living allowance in Program Year (PY) 2009-2010. The
goal of AU’s SIF grant program is to support 10 innovative public-private partnerships to
improve individual health outcomes and strengthen local service systems.

EXIT CONFERENCE

The contents of this report were discussed with AU and Corporation representatives on May
4, 2012. We summarized AU’s comments in appropriate sections of the final report and
included AU’s comments verbatim as Appendix A. The Corporation intends to respond to all
findings and recommendations in its management decision at a later date (see Appendix B).

                                               4
July 24 , 2012


Office of Inspector General
Corporation for National and Community Service

                           INDEPENDENT ACCOUNTANTS’ REPORT ON
                            APPLYING AGREED-UPON PROCEDURES

Cotton & Company LLP performed the procedures detailed in the OIG’s Agreed-Upon
Procedures for Corporation Awards to Grantees (including Subgrantees) program, dated July
2011, and Agreed-Upon Procedures for Social Innovation Fund Awards to Grantees (including
Subgrantees) program, dated November 2011 (Appendix C). These procedures were agreed to
by the OIG solely to assist it in grant cost and compliance testing of Corporation-funded Federal
assistance provided to AU for the awards detailed below.

This AUP engagement was performed in accordance with attestation standards established by
the American Institute of Certified Public Accountants and generally accepted government
auditing standards. The sufficiency of these procedures is solely the responsibility of the OIG.
Consequently, we make no representation regarding the sufficiency of the procedures, either for
the purpose for which this report has been requested or any other purpose.

Our procedures for AmeriCorps covered testing of the following awards:

                                                                                     Award
   Grant Program           Award No.         Award Period         AUP Period         Totals
   AmeriCorps National    09NDHDC006       08/01/09-07/31/12   08/01/09-09/30/11   $1,994,635
   AmeriCorps ARRA        09RNHDC008       08/01/09-05/20/10   08/01/09-05/20/10    $157,500

We performed testing of the AmeriCorps program awards at AU and reviewed match
documentation provided by its WAP service site. We selected samples of labor, benefits,
other direct, and member costs at AU and a sample of match costs at WAP that were
reported by AU on Federal Financial Reports (FFR) forms dated September 30, 2009;
December 31, 2009; March 31, 2010; September 30, 2010; March 31, 2011; and September
30, 2011.

We also tested grant compliance requirements by sampling 25 members from AU, as shown
below. We performed all applicable testing procedures in the AUP program for each
sampled member.




                                              5
                                                  Members
                             PY               Total   Sampled
                             2009-2010          47        12
                             2010-2011          54        13
                             Total             101        25


Our procedures for SIF covered testing of the following award:

                                                                                       Award
Grant Program               Award No.         Award Period          AUP Period          Total
Social Innovation Fund     10SIHDC001       08/01/10-07/31/15    08/01/10-09/30/11   $4,202,589

We performed testing of the SIF award at AU and WAP, AC, and CP. We selected samples
of labor, benefits, and other direct costs at the four sites that were reported by AU on its
March 31 and September 30, 2011, FFRs.

RESULTS OF AGREED-UPON PROCEDURES FOR AMERICORPS

We questioned claimed Federal-share costs of $33,593. A questioned cost is an alleged
violation of a provision of law, regulation, contract, grant, cooperative agreement, or other
agreement or document governing the expenditure of funds or a finding that, at the time of
testing, includes costs not supported by adequate documentation.

Participants who successfully complete terms of service under AmeriCorps grants are
eligible for education awards and, in some cases, accrued interest; both are funded by the
Corporation’s National Service Trust. AmeriCorps members may also be eligible for
childcare expenses funded by the Corporation but these expenses are not part of the grant
costs. As part of our AUP, and using the same criteria as claimed costs, we determined the
effect of our findings on education and accrued interest and childcare reimbursements
eligibility. We questioned an education award of $5,350.

Detailed results of our AUPs on claimed costs are in Exhibit A and the supporting
schedules. Results of testing grant compliance are in Exhibit B.

RESULTS OF AGREED-UPON PROCEDURES SOCIAL INNOVATION FUND

We questioned claimed Federal-share costs of $361,836. Detailed results of our AUPs on
claimed costs are in Exhibit A and supporting schedules. Results of testing grant
compliance are in Exhibit B.

We were not engaged to and did not perform an examination, the objective of which would
be expression of an opinion on the subject matter. Accordingly, we do not express such an
opinion. Had we performed other procedures, other matters might have come to our
attention that would have been reported.




                                               6
This report is intended solely for the information and use of the OIG, Corporation, AU, and
U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.


COTTON & COMPANY LLP




Michael W. Gillespie, CPA, CFE
Operations Managing Partner




                                             7
                                                                           EXHIBIT A
                             AIDS UNITED
        CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
        CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS

               Federal      Federal          Federal   Education
                Costs        Costs            Costs      Award
Grant No.      Awarded      Claimed         Questioned Questioned   Reference

09NDHDC006    $1,994,635   $1,423,647        $33,593     $5,350     Schedule A

09RNHDC008     $157,500     $157,500              $0

10SIHDC001    $4,202,589    $762,105        $361,836                Schedule B
Total         $6,354,724   $2,343,252       $395,429     $5,350




                                        8
                                                                      SCHEDULE A

                                AIDS UNITED
                  SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                          AWARD NO. 09NDHDC006


                                                          Exhibit B
                                               Amount      Finding
Claimed Federal Costs                        $1,423,647
Questioned Federal Costs:
  Member Unemployment Insurance                $14,456       3.a
  Missing Member FBI Background Check            9,370       1.b
  Staff State Criminal Registry Checks           8,088       1.d
  Unallowable Administrative Costs               1,679       3.d
  Total Questioned Costs                       $33,593

Questioned Education Award
  Missing Member FBI Background Check           $5,350       1.b




                                         9
                                                                                        SCHEDULE B

                                        AIDS UNITED
                          SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                                   AWARD NO. 10SIHDC001

                                                        Federal Costs   Federal Costs      Exhibit B
                                                           Claimed       Questioned         Finding
AU Costs                                                  $216,536
Over-Claimed Indirect Costs                                                $69,832            2.a
Staff State Criminal Registry Checks                                        21,163            1.d
Unallowable Indirect Costs                                                   1,113            3.e
Subtotal
                                                                           $92,108
Subgrantees

WAP Costs                                                 $100,970
National Service Criminal History Checks-
Subcontractors                                                             $93,816            1.h
National Service Criminal History Checks-Staff                               1,084            1.f
Subgrantee Indirect Costs Not Supported by NICRA                               590            2.b
Subtotal                                                                   $95,490
AC Costs                                                  $139,560
National Service Criminal History Checks,
Subcontractors                                                            $110,500            1.h
CP Costs                                                  $108,452
National Service Criminal History Checks,
Subcontractors                                                             $43,402            1.h
Overstated Federal Costs                                                     7,267            3.b
Subgrantee Indirect Costs Not Supported by NICRA                             3,728            2.b
Unsupported Personnel Costs                                                     89             4
Subtotal                                                                   $54,486
Other Subgrantee Costs                                    $196,587          $9,252            2.b
Total                                                     $762,105        $361,836




                                                   10
                                                                                     EXHIBIT B

                                   AIDS United
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                               COMPLIANCE RESULTS

Our AUPs identified the compliance findings described below.

Finding 1.     AU and its subgrantees did not comply with AmeriCorps requirements
               for National Service Criminal History Checks.

On October 1, 2009, the Corporation revised its criminal background check regulations and
required National Service Criminal History Checks for all covered positions. 45 Code of
Federal Regulations (CFR) §2540.202, What two search components of the National
Service Criminal History Check must I satisfy to determine an individual's suitability to serve
in a covered position?, defines a National Service Criminal History Check as two search
components, a state criminal history registry and the National Sex Offender Public Registry
(NSOPR). Unless the Corporation approves an alternative screening protocol (ASP)
request, these checks are required for all covered positions.

Further, 45 CFR §2540.200, To whom must I apply suitability criteria relating to criminal
history?, and Frequently Asked Questions, National Service Criminal History Checks
(Paragraph 5.1), state that a “covered position” for such a check is a position in which an
individual receives a Federal or match-funded living allowance, stipend, education award,
salary or other remuneration.

As discussed in the following paragraphs, AU did not comply with Corporation requirements
for state criminal history checks and NSOPR checks conducted on its AmeriCorps
members, its grant-funded staff members, grant-funded staff members at its SIF
subgrantees, and SIF subgrantee subcontractors.

Third Party Vendor Checks

   a. In PY 2010-2011, AU conducted National Service Criminal History Checks using a
      third-party vendor, but it did not ensure that the checks conducted by the vendor
      complied with AmeriCorps regulations. On January 5 and 6, 2011, the Corporation
      conducted a programmatic site visit of AU. During that visit, it noted that AU was
      using a vendor to conduct the checks, but AU could not demonstrate that the
      services provided by the vendor were equivalent to checking the designated
      statewide criminal history repositories recognized by the Corporation.

       After AU became aware of Corporation requirements for checks conducted by
       vendors, it submitted an ASP request to the Corporation on January 5, 2011. In its
       request, AU sought Corporation approval to use services from the vendor to satisfy
       requirements for a National Service Criminal History Check. On February 1, 2011,
       however, the Corporation denied AU’s request, because the vendor-service
       descriptions provided were not detailed enough to determine if the services were
       substantially equivalent to checking the designed statewide criminal history
       repositories.



                                              11
     The Corporation approved an ASP that allowed the checks performed on PY 2010-
     2011 members to stand temporally while it designed criminal history check policies
     and procedures and determined if its service sites had compliant policies in place.
     AU was also required to submit a corrective action plan for its PY 2010-2011
     members and a plan for its PY 2011-2012 members who started service in August
     2011.

     On April 30, 2011, AU submitted its corrective action plan to the Corporation. It
     stated that each PY 2010-2011 member serving as of April 2011 had submitted “FBI-
     fingerprint-based Background Check” to the FBI. According to 45 CFR §2540.206,
     Under what circumstances may I follow alternative procedures in conducting a State
     criminal registry check for a covered position?, a fingerprint-based criminal history
     check through the FBI satisfies the state criminal registry check requirement.

     We did not question these PY 2010-2011 member costs because the FBI fingerprint-
     based background check demonstrated the members were eligible to serve.

Member FBI Check and NSOPR Checks

  b. AU did not have documentation in its file to demonstrate that an FBI background
     check was conducted on one sampled PY 2010-2011 member. As support that an
     FBI background check was conducted, AU provided only a copy of an April 2011
     reimbursement request showing itemized expenses for the member’s FBI
     background check.

     On February 24, 2012, AU contacted the member and asked that she confirm that
     she submitted the background check request to the FBI and that she did not have
     the results in her possession; the member confirmed this and stated that the results
     might have been sent to her former address. AU representatives stated that it had
     begun the process of initiating a second FBI background check for this member.

     45 CFR § 2540.205 requires programs to maintain results of state criminal registry
     checks unless prohibited by state law.

     We questioned Federal member costs of $9,370 and the education award of $5,350
     for this member because AU did not demonstrate that a FBI background check was
     conducted.

  c. In PY 2010-2011, AU documented that it conducted NSOPR checks on members by
     placing a written memo in each member file. The memo included the name of the
     member and the date the NSOPR check was conducted. According to the memos,
     NSOPR checks were conducted on August 10, 2010. AU did not, however, retain a
     hard copy of the NSOPR check results as required by Corporation regulations.

     45 CFR § 2540.205 requires programs to maintain results of NSOPR checks unless
     prohibited by state law and to document in writing that results were considered when
     selecting members for the program.

     AU representatives stated that they were unaware of requirement to retain copies of
     NSOPR check and associated results until November 2011. On December 8, 2011,
     and after we discussed this issue with AU representatives, AU provided copies of

                                          12
        NSOPR checks and results it had just performed on all sampled members. We did
        not question any member costs or education awards for the sampled PY 2010-2011
        members, because the NSOPR checks provided were nationwide checks of all state
        repositories, and demonstrated the sampled members were eligible to serve.

AU Staff State Criminal History and NSOPR Checks

   d. State criminal registry checks and FBI checks for six grant-funded staff members
      hired after October 1, 2009, were not conducted until after the agreed-upon
      procedures period. AU did not initiate checks for three staff members until
      November 2011 and the other three until December 2011. AU was unaware of
      Corporation requirements for conducting state criminal registry checks on grant-
      funded staff members until it was advised of the requirements during the
      Corporation’s January 2011 site visit. AU did not however, begin initiating FBI
      checks until the current program year when it had implemented its revised
      procedures for conducting these checks.

        Additionally, according to Corporation Enforcement of Criminal History Check
        Compliance, October 2011, Consequences, programs are required to initiate state
        repository and FBI checks before staff members start work.

        We questioned Federal salaries and benefits (personnel) costs claimed for the six
        staff members because the FBI checks were not initiated until after the agreed-upon
        procedures period. We questioned $8,088 of Federal personnel costs claimed on
        the AmeriCorps award and $21,163 of Federal personnel costs claimed on the SIF
        award.

   e. AU did not retain hard copies of the NSOPR check results as required by
      Corporation regulations. Instead, AU documented that it conducted NSOPR checks
      on grant-funded staff members by completing its National Service Criminal History
      Check Documentation Checklist form for each employee. AU’s Vice President of
      Operations completed this form and certified that an NSOPR search was completed
      prior to July 31, 2011. While AU certified that it completed NSOPR checks prior to
      July 2011, it did not did not complete these certifications until December 2011.
      However, 45 CFR § 2540.205 requires programs to maintain results of NSOPR
      checks.

        On December 8, 2011, and after we discussed this issue with AU representatives,
        AU provided copies of NSOPR checks and results it had just performed on the
        sampled grant-funded staff members. We evaluated these checks and results. We
        did not question any salary and benefit costs for the sampled staff members,
        because the NSOPR checks provided were nationwide checks of all repositories,
        and because AU performed all necessary procedures to demonstrate that individuals
        shown on the results were not on the NSOPR.

Subgrantee National Service Criminal History Checks

   f.   AU and WAP claimed personnel costs for one grant-funded staff member who was
        required to undergo a National Service Criminal History check, but did not conduct
        this check until after the agreed-upon procedures period. WAP first claimed
        personnel costs for this staff member in March 2011; however, AU did not initiate

                                             13
   and receive the completed state criminal registry check until November 9, 2011, and
   the NSOPR check was not conducted until December 20, 2011.

   According to Corporation Enforcement of Criminal History Check Compliance,
   October 2011, Consequences, NSOPR, “Covered individuals cannot work until a
   program completes the NSOPR check.” Because the state criminal registry check
   and the NSOPR check were not initiated until after the agreed-upon procedures
   period, we questioned all $1,084 of Federal personnel costs claimed by WAP for this
   staff member through September 30, 2011.

g. AU and CP claimed personnel costs for three grant-funded staff members who were
   required to undergo a National Service Criminal History check. Documentation
   provided by AU indicated that these individuals had undergone an NSOPR check
   before July 31, 2011; however, AU did not retain the NSOPR check results as
   required by 45 CFR § 2540.205. On December 20, 2011, AU provided the results of
   a second check conducted on these individuals. Because documentation indicated
   that a prior NSOPR check was performed, we did not question personnel costs for
   this staff member.

   Additionally, the FBI checks for two of the three grant-funded staff members showed
   other names that were searched when the NSOPR checks were conducted. The FBI
   check for one staff member showed that the name AU searched was the staff
   member’s alias name. It did not conduct an additional NSOPR check using the
   member’s other name. The FBI check for the second staff member showed that the
   staff member had two alias names. AU conducted the NSOPR check using the staff
   member’s name, but did not conduct NSOPR searches on the two alias names.

   AU representatives stated that it did not conduct additional NSOPR checks on these
   staff members because:

     Corporation guidance and the Federal Register did not indicate that a second
      NSOPR check was required if the FBI report showed an alias name.

     The Corporation’s Frequently Asked Questions, National Service Criminal History
      Checks, document does not address checking alias names.

     The established identify on both the California Drivers Licenses and Social
      Security Cards were the names searched.

     The FBI fingerprint base check did not come back with a prohibitive criminal
      record under either name.

     The California Department of Justice state fingerprint based checks performed by
      CP did not show any criminal records.

   AU representatives further stated that AU would strengthen its standard operating
   procedure to include NSOPR checks on alias names returned from state or FBI
   checks with documentation of the check. Additionally, it will include a request for any
   additional family names used by an individual in its National Service Criminal History
   Check request forms.


                                         14
      AU representatives stated that it performed follow-up NSOPR checks on all the
      names listed for the two staff members, and that it will review all Fiscal Year 2011-
      2012 National Service Criminal History Check files and perform additional NSOPR
      checks as necessary on all alias names found during its review.

      We accepted the additional NSOPR checks conducted on the first staff member,
      because NSOPR checks provided were nationwide checks of all state repositories,
      and because AU performed all necessary procedures to demonstrate that individuals
      with the same or similar names on the results were not the staff member.

      We did not accept the additional NSOPR checks conducted on the second staff
      member, because the NSOPR checks were not nationwide checks. When the
      checks were performed, the Missouri and South Dakota registries were not
      operative. At the exit conference, AU provided an additional NSOPR check for the
      staff member. We did not question any claimed personnel costs for this staff
      member because the NSOPR check provided was a nationwide check of all state
      repositories.

SIF Subcontract National Service Criminal History Checks

   h. Neither AU nor its SIF subgrantees conducted National Service Criminal History
      checks on subcontractor personnel at its SIF subgrantees. These checks were
      required for subcontractor personnel, because the positions were funded by the SIF
      award and met the Corporation’s definition of a covered position. As previously
      stated, a covered position is a position where an individual receives a Federal or
      match-funded salary or other remuneration.

      AU determined it was not required to conduct these checks on subcontracts based
      on guidance it received from the Corporation. AU understood the regulations to
      require checks only for covered grantee and subgrantee positions, and these checks
      were not required for subcontractors engaged by the subgrantees.

      AU representatives stated that they are in the process of reviewing their current
      practices and plan to make necessary changes to ensure compliance with grant
      requirements. In addition, AU representatives stated that after our site visit to CP, it
      conducted a conference call with CP. During that call, AU learned that pursuant to
      California regulations, most, if not all, of CP’s SIF subcontractor employees were
      required to undergo state-based criminal history checks. AU learned that the
      background checks performed on the subcontractor staff members did not however,
      comply with Corporation requirements. Finally, AU representatives stated that if
      found as a requirement, it would immediately inform CP that its subcontractors would
      need to modify their background check processes.

      The SIF subcontractors are performing the same type of activities as the SIF
      subgrantees. Based on the Subcontractor Agreements, subcontractors write
      educational material, conduct interviews, provide primary care, provide supportive
      services and perform other program type functions. Because National Service
      Criminal History checks were not performed, we questioned all claimed Federal
      subcontractor costs claimed by AC, WAP, and CP. Details follow.


                                             15
                                       Questioned
                        Site          Federal Costs
                        AC              $110,500
                        WAP                93,816
                        CP                 43,402
                        Total           $247,718

Recommendations: We recommend that the Corporation:

   1a.     Provide guidance to AU to ensure that it and all of its subgrantees and SIF
           contractors conduct and maintain documentation to demonstrate that National
           Service Criminal History Checks are conducted on members and grant-funded
           staff members, subgrantees, and subgrantee subcontractors;

   1b.     Verify that AU has implemented effective National Service Criminal History
           Check procedures for itself, all of its subgrantees, and all subgrantee
           subcontractors;

   1c.     Disallow and, if already used, recover the education award made to the member
           with a questioned education award;

   1d.     Calculate and recover the appropriate amount of disallowed costs based on our
           questioned costs;

   1e.     Calculate and recover administrative costs related to disallowed AmeriCorps
           costs and require AU to adjust its FFRs for these costs; and

   1f.     Calculate and recover indirect costs related to disallowed SIF costs and require
           AU to adjust its FFRs for these costs.

AU’s Response: AU partially concurred with Finding 1. It concurred with Finding 1a, and
partially concurred with Findings 1c., 1.d, and 1g. It did not concur with Findings 1b., 1f.,
and 1h. Its responses to Findings 1b. through 1f., 1h., and the recommendations follow:

Finding 1b.

          It does not believe the member costs and education award for the member
           should be questioned because:

           o   The member submitted the background check request to the FBI;

           o   The member was reimbursed for the expenses related to the background
               check request;

           o   The payment request was received by the FBI; and

           o   The member successfully completed the program and served the number of
               hours required for an education award.

                                              16
Finding 1c. and Finding 1e.

         AU concurred with the Findings 1c. and 1e. but did not agree with the OIG’s
          interpretation of 45 CFR § 2540.205. This regulation requires AU to maintain the
          results of the National Service Criminal History Checks but does not further
          specify the form in which the results must be kept. Thus, AU previously
          maintained a written memorandum documenting a member’s NSOPR check
          stating that a check was conducted, the results of the check, and consideration of
          the results in the selection process. AU believed this practice was sufficient to
          satisfy the regulatory requirements.

Finding 1d.

         AU concurred with the finding but did not believe any costs should be
          questioned. AU used the NSOPR check to indicate that the National Service
          Criminal History check process was initiated. In addition, because Corporation
          guidance states that while awaiting the results of the criminal history checks, staff
          with access to vulnerable populations are not prohibited from working as long as
          they are accompanied by someone who has cleared a criminal history check.
          Because AU staff that worked on the SIF grant did not come into contact with
          vulnerable populations. It was not required to have such accompaniment.

Finding 1f.

         AU did not concur with the finding or questioned costs. It stated that the grant-
          funded staff member had an NSOPR check in May 2011 but it did not retain the
          results of the NSOPR check because it was AU’s policy at the time to not retain
          such documentation. It initiated the criminal history check in November 2009 and
          performed an additional NSPOR check in December 2011.

Finding 1h

         AU did not concur with Finding 1.h. or the questioned costs. It stated that
          National Service Criminal History Checks were not required for subcontractors
          engaged by SIF subgrantees. It received guidance from the Corporation that
          these requirements are applicable to grantees and subgrantees, but do not
          extend to subcontractors of subgrantees. Its interpretation of the applicable
          regulations supports the same conclusion.

         The Corporation’s Frequently Asked Questions, National Service Criminal History
          Checks states “[n]on-staff positions on program grants paid as consultants or
          contractors are not subject to criminal history background checks.”

         It believes the National Service Criminal History Check requirements do not
          apply to subcontractors of SIF subgrantees because:

          o   Subcontractors are entities contracted by subgrantees;




                                             17
          o   Subcontractor staff do not fall under the Corporation’s definition of covered
              position;

          o   The Corporation has specifically characterized subcontractors as exempt
              from these requirements to limit the scope and definition of covered positions
              to only the staff of SIF grantees and subgrantees directly named in grantee
              and subgrantee budgets.

AU Response to Recommendations:

         It will work with the Corporation to ensure AU and its subgrantees conduct and
          maintain documentation to demonstrate that National Service Criminal History
          Checks are conducted on members and grant-funded staff members and
          subgrantees. It will work with the Corporation to clarify guidance it received
          regarding National Service Criminal History Checks and extension to subgrantee
          subcontractors.

         It updated its procedures for conducting and documenting National Service
          Criminal History Checks. It looks forward to receiving confirmation from the
          Corporation that its revised procedures are effective.

         It did not believe that any costs associated with the findings should be
          disallowed, including education awards.

Accountants’ Comments: Responses the to the findings and recommendations follow:

Finding 1b.

         We do not agree with AU’s response. 45 CFR § 2540.205 and the Corporation’s
          Frequently Asked Questions, National Service Criminal History Checks
          (Paragraph 7.1) require AU to maintain the actual results of the check. These
          results are necessary to demonstrate that the member was eligible to participate
          in the AmeriCorps program. Without this documentation, the member is ineligible
          and all member costs are unallowable and the member would be ineligible for an
          education award.

Finding 1c. and Finding 1e.

         AU stated that it did not agree with the OIG’s interpretation of 45 CFR §
          2540.205 and believed that documenting its review of the NSOPR check met the
          requirements of the regulation. The OIG’s interpretation of this regulation is
          consistent with the Corporation’s interpretation. The Corporation’s Frequently
          Asked Questions, National Service Criminal History Checks (Paragraph 4.5)
          states that a program “must retain a record of the NSOPR search and associated
          results either by printing the screen(s) or by some other method that retains the
          digital images of the checks and results.”




                                             18
Finding 1d.

         AU’s response to this finding demonstrates a misunderstanding of the
          Corporation’s regulations for National Service Criminal History Checks. It stated
          that it used the NSOPR check to initiate the National Service Criminal History
          Check process and that Corporation regulations allow grant-fund staff to work if
          the results of their criminal history checks are pending. AU’s response is
          incorrect and the costs should be questioned for the following reasons.

          o   While Corporation regulations requiring a NSOPR check on all grant-funded
              staff took effect on October 1, 2009, AU did not begin conducting NSOPR
              checks until July 2011. In addition, as discussed above, the NSOPR checks
              conducted by AU were inadequate because AU did not maintain the actual
              results of the check.

          o   While AU stated that it began the National Service Criminal History process
              when it initiated the NSOPR check, it did not initiate the criminal history
              checks until November 2011 and AU did not explain the four-month gap
              between checks.

          o   Because the state criminal history checks were not initiated until November
              2011, all salaries and benefits costs from October 1, 2009 through the date of
              the criminal registry checks are unallowable.

Finding 1f.

         We do not agree with AU’s statement that the WAP grant-funded staff member
          had a NSOPR check in May 2011. During fieldwork, we obtained from AU’s
          Chief Financial Officer, a copy of AU’s background check documentation for
          grant-funded staff at WAP. The documentation provided indicated that the
          NSORP checks for this staff member were conducted in November and
          December 2011. Even if a NSOPR check was conducted in May 2011, all
          salaries and benefits costs for this staff member still would have been questioned
          because the state criminal history check was not initiated until November 2011.

Finding 1h.

         We disagree with AU’s response that National Service Criminal History Checks
          are not required for subcontractors. AU’s SIF subcontractors do not meet the
          Corporation’s definition of a subcontractor. In May 2012, the Corporation revised
          its Frequently Asked Questions, National Service Criminal History Checks
          document. In Paragraph 2.2, subcontractors are defined as individuals delivering
          goods or services to a program for a fee. The SIF subcontractors do not meet
          this definition because their employees are performing the same types of
          activities that the SIF subgrantees are performing.




                                            19
Recommendations:

         We continue to make the recommendations stated above. During resolution, the
          Corporation should ensure that the corrective actions implemented by AU are
          effective.

Finding 2.        AU claimed unallowable indirect costs for itself and its SIF subgrantees.

As described in the following paragraphs, AU incorrectly calculated SIF indirect costs and
claimed unallowable SIF indirect costs for itself and its subgrantees.

      a. AU incorrectly calculated indirect costs when it prepared its budgets for the 2010 and
         2011 funding years:

             It calculated indirect costs using the full amount of subawards to its subgrantees
              in its base. According to AU’s NICRA, however, the base should only include the
              first $25,000 of subawards made to each of AU’s 10 SIF subgrantees. AU’s
              Chief Financial Officer (CFO) could not explain why AU included the full amount
              of subawards in its calculation.

              OMB Circular A-122, Attachment A, A. D. 3. D. f. Distribution basis states:

              Indirect costs shall be distributed to sponsored awards and other benefitting
              activities within each major function based on modified total direct costs. These
              costs include all salaries and wages, fringe benefits, materials and supplies,
              services, travel, and subgrants and subcontracts up to the first $25,000 of each
              subgrant or subcontract (regardless of the period covered by the subgrant or
              subcontract.

             AU limited the Federal share of indirect costs in its 2010 and 2011 budgets to 5
              percent of total Federal costs, or 5.26 percent of total direct Federal costs. AU’s
              CFO explained that they used the 5-percent limitation on total Federal indirect
              costs in the budget, because he followed instructions in the preliminary Notice of
              Funds Availability (NOFA), which discussed this requirement. The CFO was,
              however, unaware that the section discussing this requirement had been
              removed from the final NOFA. The final NOFA required grantees to use their
              approved indirect cost rates for any indirect costs included in their budgets. AU’s
              2008 NICRA supported an indirect cost rate of 10.5 percent.

          When calculating claimed indirect costs for its September 30, 2011 FFR1, AU used
          the same methodology described above and calculated Federal indirect costs of
          $84,783.

          We recalculated Federal indirect costs claimed by AU. First, we limited the amount
          of subawards to $25,000 each for a total of $250,000. Next, we calculated the
          Federal share of subawards by multiplying the $250,000 by 61 percent, the
          percentage of Federal subaward costs used by AU in its amended budget for funding


1
    On AU’s September 30, 2011 FFR, AU claimed grant year 2010 and 2011 costs for itself and grant
    year 2010 costs for its subgrantees.

                                                 20
         year 2010. As shown in the following table, we calculated allowable Federal indirect
         costs of $14,951, a difference of $69,832.

                                              Federal Costs as of 09/30/11
              Description               Claimed        Allowable     Unallowable
              Personnel Costs            $46,477        $46,477
              Other Direct Costs          85,275         85,275
              Subawards                1,480,100        152,500
              Total Direct Costs      $1,611,852       $284,252
              Rate                        5.26%           5.26%
              Indirect Costs             $84,783        $14,951         $69,832


         After discussing these results with AU, it made an adjustment to correct claimed
         indirect costs as of September 30, 2011. We questioned $69,832 of Federal costs,
         because AU’s adjustments were made after the agreed-upon-procedures period.

   b. AU awarded each of its SIF subgrantees a fixed administrative fee of 5 percent of
      total Federal costs, although the final NOFA and SIF Cooperative Agreement Terms
      and Conditions required NICRAs for the subgrantees. The administrative fee was
      intended to cover the SIF subgrantee indirect costs, and was awarded because only
      three of the 10 subgrantees had NICRAs. The CFO stated that when finalizing
      subgrantee budgets, he allowed the fixed administrative fee because the instructions
      in the preliminary NOFA discussed this requirement. He was, however, unaware
      that the section discussing this requirement was removed from the final NOFA, or
      that the final NOFA and SIF Cooperative Terms and Agreement required NICRAs for
      the subgrantees. One subgrantee did not have a NICRA and did not have
      administrative costs in its budget. We questioned $13,570 of Federal indirect costs
      claimed by the six SIF subgrantees without NICRAs.

                                                            Questioned
                                   Subgrantee              Federal Costs
                      Montgomery AIDS Outreach, Inc.           7,149
                      Christie's Place, Inc.                   3,728
                      Center for Health Justice, Inc.          1,337
                      St. Louis Effort for AIDS                  674
                      Washington AIDS Partnership                590
                      AIDS Foundation of Chicago                   92
                      Total                                  $13,570


On January 18, 2012, AU advised its SIF subgrantees that they were unable to charge
indirect costs to the SIF grant if they did not have NICRAs. Additionally, on January 25,
2012, AU recommended that its SIF subgrantees without NICRA’s submit budget revision
requests based on the OMB Circular A-122 Direct Allocation Method but only if they had
documentation to support and accurately record and track these costs using that method.

Recommendations: We recommend that the Corporation:

   2a.      Require AU to develop controls to ensure that indirect costs claimed are properly
            calculated and in accordance with its approved budget and SIF regulations;



                                               21
   2b.       Require AU to monitor the SIF sugrantees use of the direct allocation method
             including proper support for costs and equitable distribution of cost to programs;

   2c.       Verify implementation of AU’s controls for SIF indirect costs; and

   2d.       Calculate and recover the appropriate amount of disallowed costs based on our
             questioned Federal costs and require AU to adjust its FFRs for these costs.

AU’s Response: It concurred with Findings 2a. and 2b. but did not believe the questioned
costs should be disallowed. Its responses follow:

        It developed controls to ensure that indirect costs claimed are properly calculated
         and in accordance with its approved budget and SIF regulations.

        It will monitor subgrantees that do not have a NICRA in their use of the Direct
         Allocation Method to ensure conformity with OMB Circular A-122 standards through
         its desk and on-site monitoring processes.

        It looks forward to Corporation verification of its controls for indirect costs.

        It did not believe that any costs, and thus any indirect costs, associated with this
         finding should be disallowed. All subgrantee costs related to this finding have
         already been reallocated through the budget revision process. In addition, all AU
         costs associated with this finding have already been resolved.

Accountants’ Comments: We continue to make the recommendations stated above.
During resolution, the Corporation should ensure that the corrective actions implemented by
AU are effective.

Finding 3.       AU and one subgrantee claimed unallowable Federal and match costs.

AU claimed unallowable member unemployment costs, CP overstated claimed Federal
personnel costs, and AU did not have adequate procedures for in-kind match contributions.
In addition, we questioned administrative and indirect costs related to questioned Federal
costs. Details follow:

   a. In PYs 2009-2010 and 2010-2011, AU claimed $14,456 ($6,593 from PY 2009-2010
      and $7,863 from PY 2010-2011) of unemployment insurance costs for its
      AmeriCorps members, but did not provide documentation to demonstrate that the
      states (Illinois, Indiana, Louisiana, Michigan, Oklahoma, and New Mexico) and the
      District of Columbia where its host agencies were located required unemployment
      insurance for AmeriCorps members.

         AmeriCorps State and National Policy Frequently Asked Questions C.23, Is the
         grantee required to provide unemployment insurance? , states:

             The U.S. Department of Labor ruled on April 20, 1995 that federal
             unemployment compensation law does not require coverage for members
             because no employer-employee relationship exists. The grantee may not
             charge the cost of unemployment insurance taxes to the grant unless


                                                  22
       mandated by state law. Programs are responsible for determining the
       requirements of state law by consulting their state commission, legal counsel
       or the applicable state agency. AmeriCorps State and National grantees
       must coordinate with their state commissions to determine a consistent state
       treatment of unemployment insurance requirements.
   In addition, AU required its members to complete its Member Waiver of
   Unemployment Benefits and Claims form, which stated they were ineligible for
   unemployment insurance. When completing this form, the members were required
   to certify the following:

       I recognize that I am not considered an employee of the National AIDS Fund,
       but rather an AmeriCorps member receiving a taxable living allowance (In
       accordance with 42 U.S.C. 12511(17) (B)). I also recognize that this living
       allowance is not to be considered employee wage compensation under the
       guidelines set forth by the Corporation for National and Community Service.
       Therefore, I am ineligible for unemployment compensation benefits and agree
       not to apply for unemployment compensation benefits for the time I spend as
       a member of the National AIDS Fund AmeriCorps program.

   Because AU members were ineligible for unemployment insurance, AU should not
   have claimed unemployment insurance costs for them. We questioned $14,456 of
   Federal costs.

b. In September 2011, CP claimed $12,673 of Federal personnel costs and $2,911 of
   match personnel costs. On January 12, 2012, CP revised its September 2011
   personnel costs after discovering it had overclaimed Federal personnel costs. As a
   result, CP reduced the Federal share of personnel costs by $7,267 to $5,406 and
   increased the match share of personnel costs by the same amount to $10,178. In
   addition, this adjustment was not recorded in CP’s financial management system.
   The revised accounting report provided by CP only showed $5,406 of adjusted
   Federal costs. CP representatives stated that while its automated financial
   management system creates adjusting journal entries for other costs, it does not
   create an adjusting journal entry for adjustments to personnel costs.

   Social Innovation Fund Cooperative Agreement Terms and Conditions, Section III,
   General Provisions, Subsection B.1., General, requires awardees to maintain
   financial management systems that include standard accounting practices, sufficient
   internal controls, a clear audit trail, and written cost allocation procedures. Further,
   45 CFR § 2543.21, Standards for financial management systems, Subsection (b),
   states that recipient financial management systems must provide for accurate,
   current, and complete disclosure of financial results of each Federally-sponsored
   program.

   We questioned $7,267 of overstated Federal costs because CP did not adjust its
   records until after the agreed-upon procedures period.

c. During the agreed-upon procedures period, AU claimed match costs from the sites
   that hosted members (host agencies). It required the sites to document these
   contributions using its host-agency in-kind contributions form. Authorized
   representatives at the host agencies completed these forms, which summarized


                                          23
         hours spent supervising AmeriCorps members, supervisor hourly wage, supervisor
         fringe-benefit rate, amount of member and supervisor travel expenses, percentage of
         space allocated to AmeriCorps members and supervisors, monthly rent amount, and
         the number of months of rent.

         In addition, AU’s host agencies signed an attachment to AU’s host-agency
         agreement that required a host-agency authorized representative to identify the
         AmeriCorps supervisor’s hourly wage, fringe benefit rate used to calculate supervisor
         benefits, and amount of host agency monthly rent costs. It used this document as
         support for amounts shown on the in-kind contributions forms. AU did not, however,
         obtain any additional documentation, such as timesheets, payroll records, accounting
         reports, and invoices, to support the actual amount of in-kind costs provided by the
         host agencies.

         45 CFR § 2543.23 Cost sharing or matching, states that third-party in-kind
         contributions used to satisfying a cost-sharing or matching requirement must be
         verifiable from grantees and subgrantee or cost-type contractor records. These
         records must show how the value placed on third-party in-kind contributions was
         derived. Regulations require volunteer services to be supported by the same
         methods that the organization uses to support the allocability of regular personnel
         costs to the extent feasible. Further, the value of donated space is to be valued at
         the fair rental rate of the space.

         AU representatives stated that it had relied on guidance received from the
         Corporation and believed that its documentation supported the costs. After we
         discussed this issue with AU, it provided a copy of its revised in-kind contributions
         form. It now required host-agency supervisors to complete a timesheet showing
         AmeriCorps and non-AmeriCorps hours.

         We questioned no costs, because AU provided copies of AmeriCorps supervisor
         timesheets for one of two sampled in-kind transactions. We questioned no costs for
         the second sampled in-kind transaction, because AU had claimed match costs in
         excess of its required match.

   d. We questioned $1,679 [($14,456 + $9,370 + $8,088 = $31,914 x 5.26%)] of
      administrative costs related to $14,456 of questioned member unemployment
      insurance costs (Finding 3a.), $9,370 of questioned member costs for the missing
      member FBI background check (Finding 1b.), and $8,088 of questioned costs for the
      late staff state criminal history checks (Finding 1d.).

   e. We questioned $1,113 (5.26 percent x $21,163) of indirect costs related to $21,163
      questioned in Finding 1 for late state criminal history checks conducted on AU staff
      members.

Recommendations: We recommend that the Corporation:

   3a.      Ensure that AU reviews applicable regulations and strengthens controls to
            ensure that claimed member unemployment insurance are allowable in
            accordance with Corporation regulations;



                                                24
   3b.     Ensure that AU reviews applicable regulations and strengthens controls to
           ensure that claimed in-kind match costs are verifiable from host agency records,
           demonstrate how the value placed on third-party in-kind contributions was
           derived, and that volunteer services are supported by the same methods that the
           organization uses to support the allocability of Federal personnel costs;

   3c.     Ensure that AU requires all of its subgrantees to review applicable regulations
           and develop controls to ensure that their financial management systems for
           accounting and reporting Federal and match costs are accurate, complete,
           reconciled and include sufficient accountability;

   3d.     Verify the implementation of controls for unemployment costs, Federal and match
           costs and subgrantee financial management systems;

   3e.     Calculate and recover the appropriate amount of disallowed costs based on our
           questioned Federal costs and require AU to adjust its FFRs for the disallowed
           costs; and

   3f.     Calculate and recover administrative and indirect costs related to disallowed
           costs.

AU’s Response: It concurred in part with Finding 3a. but believed that a determination
about the questioned costs should await additional guidance from the District of Columbia
Department of Employment Services (DOES). It concurred with Finding 3b. but stated that
the questioned cost had been resolved. It did not concur with Findings 3c., 3d., or 3e., or
the questioned costs in Findings 3d. and 3e. Its detailed responses to findings 3.a., 3.c.,
and the recommendations follow:

Finding 3a.

          AU has historically contributed to the District of Columbia unemployment
           compensation fund for its AmeriCorps members because it believed it was
           required to by law. In an effort to mitigate the risk of successful unemployment
           claims for AmeriCorps members, AU required its members to complete a
           Member Waiver of Unemployment Benefits and Claims form. Despite this waiver
           process, AU received AmeriCorps member unemployment compensation claims
           in 2007, 2008, 2010, and one member was successful in receiving
           unemployment compensation as a result of the claim filed.

          It is seeking official guidance from DOES to determine whether it is required to
           contribute to the unemployment compensation fund on behalf of AmeriCorps
           members. As of the date of its response, it had not yet received a final response.
           Upon receiving official guidance from DOES, AU plans to revaluate its current
           policy and make necessary revisions to ensure its policy complies with both the
           laws of the states (including the Distinct of Columbia) where AU places
           AmeriCorps members and the applicable AmeriCorps regulations.

Finding 3c.

          It attempted to collect underlying documentation of matching costs including pay
           and fringe rates of staff, space rental rates attributed to AmeriCorps activities,

                                             25
        mileage, and other in-kind costs of hosting an AmeriCorps member. Its host-
        agency agreement provides space for host agency staff to document the costs
        used to calculate in-kind contributions to the program.

       The Corporation did not identify any compliance findings related to
        documentation of in-kind match costs during its site visits to AU.

       In the PY 2011-2012, AU strengthened its in-kind reporting process by creating a
        monthly time sheet form for supervisors to complete in addition to their quarterly
        in-kind tracking forms. The new time sheet required supervisors to list their total
        number of working hours per day (to match with their agency time keeping
        records) and to indicate the number of hours per day spent on member
        supervision.

       It worked with its host agencies to ensure consistent submission of timesheets
        and in-kind reports as documentation of match in the current program year
        reporting period.

       It created detailed time logs, which are part of the underlying documentation
        discussed above, which were audited at the WAP operating site. These logs
        were found to be in compliance by the auditors.

AU Response to Recommendations:

       It requested that DOES perform a review of AU’s past contributions and issue a
        ruling regarding the status and requirement of coverage for AU’s AmeriCorps
        members. It submitted amended quarterly unemployment compensation tax
        reports for the two-year agreed-upon procedures period to DOES and requested
        the return of unemployment compensation tax previously remitted to DC for its
        AmeriCorps members.

       It strengthened its in-kind reporting process by creating a monthly time sheet
        form for supervisors to complete in addition to their quarterly in-kind tracking
        forms to enhance in-kind reporting.

       It now requires SIF subgrantees to submit monthly financial reports for expense
        reimbursement, including general ledger reports, to closely monitor grant activity.

       It will work proactively with the Corporation to ensure the implementation of
        controls for unemployment costs, federal and match costs, and subgrantee
        financial management systems.

       It did not believe that any costs associated with this finding should be disallowed.
        All CP subgrantee costs related to personnel charges were corrected during the
        grant year. AU believes it acted prudently in contributing to the DC
        unemployment compensation fund in order to comply with DC law.




                                           26
Accountants’ Comments: Responses to findings 3.a., 3.c., and the recommendations
follow:

      AU’s response to Finding 3.a. addressed unemployment insurance for members
       serving at its District of Columbia host site but did not address members serving at
       its host sites located outside of the District. The Corporation should ensure that AU’s
       corrective actions for member unemployment insurance include a determination of
       whether unemployment insurance is required for members serving at the other host
       sites.

      As discussed in the finding, while AU required its host sites to document on the
       agreements and timesheet forms the amount of in-kind contributions, it did not obtain
       any additional documentation from the host agencies, such as timesheets, payroll
       records, accounting reports, and invoices, to support the actual amount of in-kind
       costs provided by the host agencies.

      We continue to make the recommendations stated above. During resolution, the
       Corporation should ensure that the corrective actions implemented by AU are
       effective.

Finding 4.    Subgrantee timekeeping systems did not comply with Federal
              requirements, and some timesheets were undated.

Employee timesheets at CP, AC, AU, and a SIF subcontractor did not comply with Office of
Management and Budget (OMB) Circular A-122. Details follow:

      In September 2011, CP claimed $987 of Federal personnel costs for its Administrative
       Coordinator that were not supported by a timesheet. The employee’s timesheets
       showed that all hours were allocated between general hours and another CP program,
       and documentation provided by CP showed that claimed personnel costs were
       calculated using a budget estimate. CP did not believe the employee was required to
       document hours worked on the SIF program, because the employee was considered an
       indirect employee.

       We questioned $987 of unsupported Federal costs; $89 is questioned in this finding, and
       the remaining $898 is included in the $7,267 of overstated costs questioned in Finding
       3b.

      Timesheets for AC’s employees showed the percentage of time allocated to SIF and
       non-SIF activities, but did not include daily allocations of hours worked by the
       employees. AC representatives were unfamiliar with OMB Circular A-122 requirements
       and believed that its timesheet format complied with the circular.

       After we discussed this issue with AC, it revised the timesheet template used by its
       employees to include lines to identify grant names worked on by the employees as well
       as space for employees to record daily hours for all activities. In addition, AC
       representative stated that monthly payroll entries into the general ledger would be based
       on actual hours recorded on timesheets.




                                             27
        Timesheets for employees at WAP and one of WAP’s subcontractors were signed in
         advance.

        Timesheets for AU employees were signed by employees and their supervisors, but they
         did not date their signatures.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B, Selected
Items of Cost, Paragraph 8.m., Support of salaries and wages, states that the distribution of
salaries and wages to awards must be supported by personnel activity reports that reflect an
after-the-fact determination of actual activity of each employee. Budget estimates do not qualify
as support for awards.

Recommendations: We recommend that the Corporation:

   4a.      Require AU to strengthen its monitoring procedures to ensure that its SIF
            subgrantees and SIF subgrantee contractors complete timesheets for all
            employees that work on the SIF grant and that the timesheets are dated and
            signed after-the-fact;

   4b.      Require AU to strengthen its monitoring procedures to ensure that employee and
            supervisor timesheet signatures are dated;

   4c.      Verify implementation of AU’s strengthened monitoring procedures for timesheets;
            and

   4d.      Require AU to adjust its FFRs for the disallowed costs.

AU’s Response: Its responses to the finding and recommendations follow:

           It concurred with the part of the finding related to timesheets for AC and
            timesheets for employees at one of WAP’s subcontractors.

           It did not concur with the part of the finding related $89 and $898 of CP
            questioned costs or the undated timesheets at AU.

            o   The $89 of questioned costs were mitigated as part of its subgrantee indirect
                cost budget revision and oversight plan outlined in its response to Finding 2.b
                above. It stated that the remaining questioned costs of $898 were resolved
                by CP in January 2012.

            o   Its existing processes for logging time and electronic backup of source data
                include multiple levels of oversight and approval. It believes that these
                processes comply with the reporting requirements of OMB Circular A-122, As
                a further best practice, it recently added a date field that will be completed by
                both staff and supervisors as part of their timesheet completion procedures.

           It will work with the Corporation to further strengthen its timesheet monitoring
            procedures for both AU and subgrantee staff to ensure accurate recording and
            dating of personnel activity.



                                               28
            It did not believe that any costs associated with this Finding should be
             disallowed.

Accountants’ Comments: Responses to the finding and recommendations follow:

      The $987 ($89+$898) of questioned CP costs were questioned and reported as
       findings because CP’s corrective actions were made after the agreed-upon
       procedures period.

       Adding a date field to the staff and supervisor timesheets is responsive to the
       recommendation.

      We continue to make the recommendations stated above. During resolution, the
       Corporation should ensure that the corrective actions implemented by AU are
       effective.

Finding 5.      Subgrantees did not have adequate monitoring procedures to ensure
                subcontractor compliance with SIF regulations and the allowability of
                subcontractor claimed costs.

AC and WAP could not provide documentation to support that their subcontractors were
advised of requirements imposed on them by Federal laws, regulations, and the provisions
of contracts or grant agreements as well as any supplemental requirements.

      AC’s award letter to its subcontractors stated that funding was provided through SIF,
       which was administered by AU; SIF was not, however, identified as a Federal grant. In
       addition, its memorandum of understanding with subcontractors identified the name of its
       program, but did not mention the SIF award or any of the requirements imposed on
       them. AC representatives stated that it advised its subcontractors of the requirements
       through email, but it did not provide such documentation.

      WAP’s subcontractor agreements stated that its program was funded through AU’s
       Access to Care Initiative, which was supported by a grant from the SIF fund; however,
       the agreement did not identify the SIF as a Federal grant and did not identify any of the
       requirements imposed on them. WAP representatives stated that it advised its
       subcontractors of the requirements through email, but it did not provide such
       documentation. WAP representatives stated that Federal requirements will be included
       in year two subcontractor agreements, emailed to subcontractors, and discussed at
       subcontractor meetings. Additionally, addendums to subcontractor agreements will be
       made if necessary.

OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations,
Subpart D, Section.400 (d), Pass-through entity responsibilities, states that pass-through
entities shall:

      Identify Federal awards made by informing each subrecipient of the Catalog of Federal
       Domestic Assistance (CFDA) title and number, award name and number, award year,
       and the name of the Federal agency.




                                                29
      Advise subrecipients of requirements imposed on them by Federal laws, regulations,
       and provisions of contracts or grant agreements as well as any supplement
       requirements.

AC and WAP did not have adequate procedures to ensure that costs claimed by its
subcontractors were allowable in accordance with applicable cost circulars.

      AC monitored programmatic performance of the work. It ensured that subcontractors
       completed the work and submitted required reports, but it did not have procedures to
       monitor fiscal activities of its subcontractors. AC representatives stated that at the end
       of the grant year, its subcontractors were required to provide budget reconciliations
       showing budget-to-actual expenses. These reconciliations have not, however, been
       conducted, because the grant year is still open. Additionally, AC had not yet determined
       what documentation it would require its subcontractors to submit with the reconciliations.

      WAP monitored programmatic performance of the work. It ensured that subcontractors
       completed the work and submitted required reports. In addition, it performed some
       monitoring of subcontractor fiscal activities. These procedures were not, however,
       formally documented. WAP required its subcontractors to provide an interim financial
       report in September 2011, and it sampled some expenses from one of six
       subcontractors.

       Interim financial reports submitted by the subcontractors were informal spreadsheets
       summarizing project expenditures. WAP did not require the subcontractors to provide
       documentation, such as reports from subcontractor accounting systems, to support
       expenditures shown on spreadsheets. In addition, WAP obtained a sample of invoices
       and employee timesheets for its largest subcontractor, but it did not plan to obtain
       supporting documentation from its other five subcontractors.

OMB Circular A-133, Subpart D, Section.400 (d), Pass-through entity responsibilities, states that
pass-through entities shall monitor activities of subcontractors as necessary to ensure that
Federal awards are used for authorized purposes in compliance with laws, regulations, and the
provisions of contracts or grant agreements and that performance goals are achieved.

Without procedures to monitor all subcontractor activities, subgrantees cannot ensure that costs
claimed by the subcontractors are allowable, adequately documented, and allocable in
accordance with applicable costs principles and regulations. The costs are not questioned here
because all subcontractor costs are questioned for National Service Criminal History Checks in
Finding 1.


Recommendations: We recommend that the Corporation:

 5a.     Require AU and its subgrantees to review applicable regulations and develop
         monitoring procedures to ensure that subcontractor claimed costs are compared to
         budget and reconciled to the accounting system. Further, AU and its subgrantees
         should ensure that these costs are supported by documentation that demonstrates that
         the costs were allowable and used for authorized purposes in accordance applicable
         cost principles and regulations;



                                             30
 5b.     Ensure that AU requires all subgrantees and subgrantee subcontractors to review
         applicable regulations and develop procedures to ensure that claimed Federal and
         match costs are allowable, adequately documented, and allocable in accordance with
         applicable cost principles and regulations; and

 5c.     Verify implementation of the monitoring procedures.

AU’s Response: Its responses to the finding and recommendations follow:

      It concurred with the finding.

      It will work with its subgrantees to develop enhanced procedures to ensure that costs
       charged by their subcontractors comply with applicable federal regulations.

Accountants’ Comments: We continue to make the recommendations stated above.
During resolution, the Corporation should ensure that the corrective actions implemented by
AU are effective.

Finding 6.    AU and its subgranteees did not have procedures to ensure that
              advances were disbursed in a timely manner.

AU, AC, and WAP did not have procedures to ensure that advances were disbursed in a
timely manner. Details follow:

      AU representatives stated that it initially provided its SIF subgrantees with lump-sum
       cash advances at the beginning of subgrantee 1-year projects. AU’s Federal Cash
       Transaction Report (FCTR) showed that it had cumulative cash drawdowns of
       $1,506,695 as of July 1, 2011. AU stated that it learned in July 2011 that it should
       not have provided advances to its subgrantees’ and began switching them to a
       reimbursement method. Its FCTR showed that AU returned $996,796 of funds on
       September 12, 2011, and that its September 30, 2011 cash drawdowns of $762,105
       equaled Federal expenditures claimed on its FFR. However, as discussed below,
       the $762,105 expenditures included advances from its SIF subgrantees to
       subcontractors.

      In March 2011, WAP provided advances totaling $93,816 to its six subcontractors. As
       previously discussed in Finding 5, WAP did not require its subcontractors to submit
       financial reports summarizing expenditures until September 2011. Further, financial
       reports submitted were only spreadsheet summaries of expenditures that did not include
       details, such as dates subcontractors incurred expenditures. As a result, we could not
       determine if WAP ensured that subcontractors minimized the time elapsing between
       fund receipt and disbursement or if all advanced funds have now been spent.

      AC provided advances of $74,500 to five of its SIF subcontractors in July 2011 and
       $36,000 to three of its SIF subcontractors in October 2011. As discussed in Finding
       5, AC did not have procedures to monitor the fiscal activities of its subgrantees, did
       not require subgrantees to provide reconciliations of budget-to-actual expenditures
       until the end of the grant year, and had not determined what supporting
       documentation it would require its subcontractors to submit to AC. As a result, we
       could not determine if WAP ensured that subcontractors minimized the time elapsing


                                             31
       between fund receipt and disbursement or if all advanced funds have now been
       spent.

45 CFR § 2543.21 Standards for financial management systems, states:

   (l) For those entities where CMIA and its implementing regulations do not apply,
       interest earned on Federal advances deposited in interest bearing accounts shall
       be remitted annually to Department of Health and Human Services, Payment
       Management System, Rockville, MD 20852. Interest amounts up to $250 per
       year may be retained by the recipient for administrative expense. State
       universities and hospitals shall comply with CMIA, as it pertains to interest. If an
       entity subject to CMIA uses its own funds to pay pre-award costs for
       discretionary awards without prior written approval from the Federal awarding
       agency, it waives its right to recover the interest under CMIA.

45 CFR § 2543.22 Payment, states:

   (a) Payment methods shall minimize the time elapsing between the transfer of funds
       from the United States Treasury and the issuance or redemption of checks,
       warrants, or payment by other means by the recipients. Payment methods of
       State agencies or instrumentalities shall be consistent with Treasury-State CMIA
       agreements or default procedures codified at 31 CFR part 205.

   (b) Recipients are to be paid in advance provided they maintain and demonstrate the
       willingness to maintain: (1) written procedures that minimize the time elapsing
       between the transfer of funds and disbursement by the recipient, and (2) financial
       management systems that meet the standards for fund control and
       accountability…Cash advances to recipient organization shall be limited to the
       minimum amounts needed and be timed to be in accordance with the actual,
       immediate cash requirements of the recipient organization in carrying out the
       purpose of the approved program or project. The timing and amount of cash
       advances shall be as close as is administratively feasible to the actual
       disbursements by the recipient organization for direct program or project costs
       and the proportionate share of any allowable indirect costs.

We recommend that the Corporation:

 6a.    Require AU to review applicable regulations and develop policies and procedures to
        ensure that time elapsing between receipt and disbursement of funds is minimized;

 6b.    Ensure that AU requires all of its subgrantees and subgrantee subcontractors to
        review applicable regulations and develop procedures to ensure that time elapsing
        between receipt and disbursement of funds is minimized;

 6c.    Verify that AU and its subgrantees and subgrantee contractors implement the
        procedures; and

 6d.    Require AU to calculate and recover any interest earned in excess of $250 on
        advances that were, not disbursed in a timely manner and return the interest to the
        Department of Health and Human Services payment management system.


                                              32
AU’s Response: It concurred with this finding. Its responses to the recommendations
follow:

      Effective November 1, 2011, AU transitioned from advances to monthly
       reimbursements to its subgrantees.

      It will encourage its subgrantees to move from advances to reimbursements for their
       subcontractors. It will also work with subgrantees to minimize the time elapsing
       between receipt and disbursement of funds advance by subgrantees to
       subcontractors.

      It will work with the Corporation to ensure the implementation of controls for
       subgrantee and subcontractor reimbursement procedures.

      It was unaware of any subgrantee payments to subcontractors that were not
       disbursed in a timely manner. If it learns that any payments to subgrantees were not
       disbursed in a timely manner it will work with the subgrantee and the Corporation to
       calculate and recover any interest earned on these payments and return the interest
       to the Department of Health and Human Services payment management system.

Accountants’ Comments: Responses to the findings and recommendations follow:

      AU stated in its response that it was unaware of any subgrantee payments to
       subcontractors that were not disbursed in a timely manner. It appears from this
       statement that AU is confusing disbursements for advances to subcontractors with
       disbursements for grant expenditures. As discussed in the finding, two of AU’s
       subgrantees advanced funds to subcontractors but neither subgrantee had
       documentation to demonstrate that the advances were expended timely.

      We continue to make the recommendations stated above. During resolution, the
       Corporation should ensure that the corrective actions implemented by AU are
       effective.

Finding 7.    AU’s subgrantee agreements included conditions that did not comply
              with SIF regulations.

AU misinterpreted SIF regulations and improperly modified its SIF subgrantee agreements.
Section 198K of the National and Community Service Act (NCSA) of 1990, as amended
subsection (k), Matching Funds for Subgrants, states that grantees may not make subgrants
to subgrantees unless the subgrantees make available annual matching funds in cash in an
amount equal to but not less than one dollar for every dollar of funds (50 percent) provided
under the subgrant. If the subgrantee fails to make such matching funds available for a
fiscal year, the grantee may not make payments to the subgrantee for the remaining fiscal
years of the subgrant period.

AU included the requirements that subgrantees provide an annual 50-percent cash match in
its subgrantee agreements, Condition 3, dated June 20, 2011, Matching Fund
Requirements. These funds were required to be provided in cash and were required to be
received by the end of each 12-month funding period.


                                              33
On November 4, 2011, however, AU amended its subgrantee agreements and revised the
wording of the Matching Fund Requirements condition. Specifically, the revised condition
stated that the AU’s subgrantees were required to provide matching funds in cash, and
these funds were required to be expended by the end of the total grant period. Unless AU
approved a 1- or 2-year extension, the conclusion of the total grant period was defined as
February 28, 2014.

AU representatives stated that it amended its subgrantee agreements after an
undocumented conversation with its Corporation Grants Officer, but that the Grants Officer
cited Social Innovation Fund Cooperative Agreement Terms and Conditions, Section II,
Social Innovation Fund Special Provisions, Subsection F, Matching Fund Requirements, as
the reason for the change. This section states that all subgrantees must provide at least 50
percent of the cost of carrying out the activities supported under their subgrants. Because
this section did not discuss the requirement for providing the match costs annually for each
fiscal year, AU’s understanding of the requirement was that it had until the end of the
cooperative agreement to provide the match.

We do not agree with AU’s amendment to its subgrantee agreements, or its interpretation of
the rules that subgrantees have until the end of the grant period to provide their matching
funds. As discussed above, NCSA requires subgrantees to provide matching funds
annually for each fiscal year. Further, allowing subgrantees to provide matching funds at
the end of the grant period could result in subgrantees failing to meet their match
requirements resulting in reimbursement of unallowable Federal costs due to the unmet
match.

Recommendations: We recommend that the Corporation:

   7a.     Require AU to amend the Matching Fund Requirements condition of its
           subgrantee agreements to include requirements that subgrantees provide an
           annual cash match of 50 percent, and that all funds must be incurred by the end
           of each 12-month funding period;

   7b.     Verify AU’s implementation of the amended subgrantee agreements; and

   7c.     Revise the wording of the Matching Fund Requirements section of its
           Cooperative Agreement Terms and Conditions to include language from NCSA
           that discusses the requirement for subgrantees to provide match funds on an
           annual basis and the consequences for failing to do so.

AU’s Response: It did not concur with the finding. Its responses to the finding and
recommendations follow:

          It followed guidance received from its Corporation Grants Officer and removed
           the annual match requirement from its subgrantee agreements.

          It will work with the Corporation to identify the appropriate Matching Fund
           Requirements for its subgrantee agreements, make any necessary revisions, and
           implement any amended agreements.



                                             34
Accountants’ Comments: We continue to make the recommendations stated above.
During resolution, the Corporation should ensure that the corrective actions implemented by
AU are effective.

Finding 8.    AU did not comply with certain AmeriCorps and SIF requirements.

AU did not comply with AmeriCorps requirements for citizenship eligibility, member timesheets,
member contracts, end-of-term performance evaluations, AmeriCorps and SIF requirements for
record retention, and member forms. Details follow:

   a. One PY 2009-2010 member did not have proper citizenship documentation. The file
      for the member had copies of a driver’s license and a Social Security card. It also
      included a December 29, 2010, email from AU’s AmeriCorps Program Officer to the
      member. The Program Officer stated that AU’s file for the member was incomplete
      and requested that the member provide a copy of the member’s birth certificate or
      passport by January 7, 2011. The file did not, however, contain either document.
      Because the Program Officer was no longer employed by AU, it could not explain
      why these documents were not in the member file.

       45 CFR § 2522.200, What are the eligibility requirements for an AmeriCorps
       participant?, states that every AmeriCorps participant is required to be a citizen,
       national, or lawful permanent resident alien of the United States. Further, 2009
       AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
       Subsection G.1, Recordkeeping, states that grantees must maintain records
       sufficient to establish that each member is eligible to participate.

       Driver’s licenses and Social Security cards do not establish citizenship. The failure
       to verify citizenship before a member’s start date could result in enrolling ineligible
       members who are not citizens, nationals, or lawful permanent residents. On January
       3, 2012, and after we discussed this issue with AU representatives, AU provided
       citizenship documentation for this member. Therefore, we did not question
       education awards and member costs.

   b. Member signatures on timesheets for three sampled PY 2009-2010 members were
      not dated as required by the AmeriCorps Provisions. In addition, we noted that
      timesheets for 10 sampled PY 2009-2010 members and 6 sampled PY 2010-2011
      members were signed in advance.

       2009 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
       Subsection C.4., Timekeeping, requires grantees to keep time-and-attendance
       records for all AmeriCorps members to document their eligibility for in-service and
       post-service benefits. Time-and-attendance records must be signed and dated by
       the member.

       AmeriCorps requirements address policy but do not address specific timesheet
       procedures, which is the responsibility of the grantee or subgrantee. It is, however, good
       business practice to ensure that members do not sign and complete their timesheets in
       advance. As a result, accountability is maintained, and timesheets are consistent with
       member intentions.



                                              35
   AU representatives stated that its members are not allowed, advised, or encouraged
   to enter hours in advance of completing actual service but in the past, it did not
   provide members with guidance that stated they could not sign timesheets in
   advance. Its policy has focused on the accuracy of timesheets and to monitoring
   member progress towards completion of the required service hours. AU plans to
   advise members of its preference against signing and dating timesheets in advance.

c. PY 2009-2010 and 2010-2011 member contracts did not include all prohibited
   activities specified in 45 CFR §2520.65, What activities are prohibited in AmeriCorps
   subtitle C programs?. Specifically, the member contract did not include statements
   that the member may not:

      Organize or engage in protests, petitions, boycotts, or strikes;

      Impair existing contracts for services or collective bargaining agreements;

      Provide a direct benefit to a labor union; and

      Provide a direct benefit to a nonprofit organization that fails to comply with
       restrictions contained in Section 501(c)(3) of the Internal Revenue Code of 1986,
       except this does not prevent participants from engaging in advocacy activities
       undertaken at their own initiative.

   2009 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
   Subsection D.2, Member Contracts, states that grantees must require each member
   to sign a contract that, at a minimum, includes or refers to the prohibited activities,
   including those specified in the regulations.

   The Corporation also had a similar finding during its January 5 and 6, 2011, site visit
   and during its June 10, 2011, site visit to one of AU’s host agencies. During the June
   site visit, the Corporation noted that the listing of prohibited activities was incomplete
   in one member contract completed in August 2010. The Corporation also noted that
   AU had updated the prohibited activities in its member manual, but did not make
   changes to its member contracts. In its response to the Corporation’s findings, AU
   representatives stated that it had revised its member contract to include the current
   list of prohibited activities. We reviewed a copy of AU’s PY 2011-2012 member
   contract included in its member manual and verified that the contract included the
   current list of prohibited activities.

d. AU did not have procedures to ensure that members signed member contracts
   before starting service.

      Eight sampled PY 2009-2010 members signed their contracts 1 or 2 days after
       staring service.

      One sampled PY 2009-2010 member signed the contract 32 days after starting
       service.

      Twelve sampled PY 2010-2011 members signed their contracts 1 to 3 days after
       starting service.


                                          36
     2009 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
     Subsection D.2, Member Contracts, states that grantees should ensure that
     contracts are signed before commencement of service. Failure to have members
     sign member agreements with all required elements before the start of service could
     result in members being unaware of their duties, rights, and responsibilities.

     The Corporation noted a similar finding during its January 5 and 6, 2011, site visit. In
     its response to the Corporation, AU stated that it had revised its policies and
     procedures manual for member contracts. It stated that it would provide copies of
     the contracts to members one week prior to orientation and would require members
     to provide signed contracts on the first day of service.

e. In PY 2010-2011, AU’s evaluation format lacked space to document the date the
   evaluations were provided and to document member receipt. As a result, we could
   not determine if its PY 2010-2011 members received end-of-term evaluations as
   required.

     2009 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
     Subsection D.4, Performance Reviews, states that a grantee must conduct and keep
     a record of at least a midterm and end-of-term written evaluation of each member's
     performance. Further, it is good business practice to ensure that members sign end-
     of-term evaluations. As a result, accountability is maintained, and evaluations are
     consistent with member and management intentions.

     AU representatives stated it switched from paper to the electronic format to increase
     efficiency, but found the paper format preferable. In PY 2011-2012, AU changed its
     evaluation system back to the paper format.

f.   According to AU’s record retention policy, check registers, journal entries, paid
     accounts payable invoices, and accounts receivable invoices are required to be
     retained for period of seven years. While a seven-year record retention period may
     be long enough for its AmeriCorps grant, which has a grant period of three years,
     this retention period may not be long enough for its SIF grant, which has a grant
     period of five years. With a five-year grant period, AU could be required to retain
     records for eight years, calculated as its award period of five years plus three years
     after submission of the last FFR for the grant. Further, the retention period could
     increase to more than eight years if the grant period is extended beyond its original
     end date.

     45 CFR § 2543.53, (b) Financial records, states that grantees are required to retain
     all program records for three years from the date of submission of the final FFR.

     Without a record retention policy in compliance with Corporation requirements,
     documents and records related to the program may not be retained for the required
     period.

g. Enrollment and exit forms for all sampled members did not have supervisory or
   certifying official signatures. In addition, exit forms for 10 sampled PY 2010-2011
   members did not have member signatures. MyAmeriCorps Frequently Asked
   Questions (dated October 2, 2009), Miscellaneous, Are we still required to retain

                                            37
         paper copies of the enrollment and exit form?, states that if both the member and
         program certify an enrollment or exit form in the MyAmeriCorps Portal (Portal),
         the program is not required to retain paper copies of the exit form, because the
         Portal serves as the system of record for enrollment and exit forms. However,
         without retaining paper copies of member enrollment and exit forms with member
         and supervisor or certifying official signatures, the Corporation cannot determine
         the forms are consistent with member and management intentions. Further,
         without a supervisor or certifying official signature on the exit form, we were
         unable to verify that education award eligibility certification, which is an element
         of the exit form, was complete for all sampled members.

Recommendations: We recommend that the Corporation:

   8a.      Require AU to strengthen its procedures to ensure that it complies with
            AmeriCorps requirements for citizenship verification and ensure that such
            documentation is retained in the files for all members;

   8b.      Require AU to strengthen its member timekeeping procedures and ensure that
            member timesheets are not signed in advance and are dated;

   8c.      Verify implementation of AU’s strengthened procedures for citizenship verification
            and member timesheets;

   8d.      Verify implementation of AU’s strengthened policies and procedures for ensuring
            that member contracts contain all required stipulations and are signed before
            members start service;

   8e.      Verify implementation of AU’s evaluation form and ensure that it complies with
            Corporation requirements and is signed and dated by the member and
            supervisor;

   8f.      Provide guidance to AU on developing a record retention policy that complies
            with Corporation requirements;

   8g.      Verify implementation of AU’s revised record retention policy; and

   8h.      Revise its Frequently Asked Questions document to ensure that all grantees
            retain hard copies of member enrollment and exit forms.

AU’s Response: It concurred with Findings 8b., 8c., 8d. and 8f. but did not concur with
Findings 8a., 8e., and 8g. Its responses to Findings 8a., 8e., 8g. and the recommendations
follow:

Finding 8a.

           It complied with AmeriCorps requirements for citizenship eligibility.

           AmeriCorps Provisions do not require grantees to make or retain copies of the
            actual documents used to confirm citizenship, so long as the grantee’s process of
            identifying documents reviewed and maintaining a record is consistent.


                                                38
         Its citizenship verification process ensures that citizenship requirements are met
          and proper records are maintained. During the member application process, it
          verifies citizenship eligibility by requiring its applicants to submit either a passport
          or a driver’s license and birth certificate. If at the time of application, the
          applicant does not have a birth certificate; it permits the member to submit a
          Social Security card in addition to a driver’s license. It uses these documents to
          process the application but does not offer the applicant an AmeriCorps member
          position until it receives the required documentation.

Finding 8e.

         It conducted its end-of-term member performance evaluations in accordance with
          the requirements of the AmeriCorps Provisions and the 45 CFR.

         Corporation guidance on performance evaluations states that grantees should
          maintain written documentation, in a format determined by the grantee, that
          members received a final performance evaluation in accordance with the
          regulations.

         The AmeriCorps Grant Provisions, 45 CFR, and Corporation guidance on
          performance evaluations require member performance evaluations to be written
          but not handwritten.

         Its Corporation Program Officer was provided a copy of the evaluation and did
          not find any deficiencies.

         The AmeriCorps Provisions and regulations do not mandate how performance
          evaluations should be communicated to members. However, it is AU’s internal
          procedure to resolve and report back any “poor or unsatisfactory reviews” with
          members and supervisors prior to issuing a full education award

Finding 8g.

         AU completed exit forms in compliance with the expectations of the Corporation.
          The AmeriCorps Provisions do not require supervisory signatures or paper
          copies for exit forms. In addition, the MyAmeriCorps Frequently Asked
          Questions document states that if both the member and the program certify an
          enrollment or exit form in the Portal, the program is not required to retain paper
          copies of the exit form, because the Portal services as the system of record for
          enrollment and exit forms.

AU Response to Recommendations:

         It strengthened its procedures to ensure that it complies with AmeriCorps
          requirements for citizenship verification and that appropriate documentation is
          retained in files for all members. It will continue to work with the Corporation to
          ensure its procedures incorporate recommended best practices.

         It strengthened its member timekeeping procedures to ensure that member
          timesheets are maintained in accordance with Corporation requirements. It


                                              39
          requests guidance from the Corporation regarding when members should sign
          and date timesheets.

         It looks forward to the Corporation verification of its strengthened procedures for
          citizenship verification, member timesheets, member contracts, and member
          evaluations.

         It developed a record retention policy that it believes complies with Corporation
          requirements and looks forward to Corporation verification of its policy.

         It did not comment on the recommendation that the Corporation revise it
          Frequently Asked Questions document.

Accountants’ Comments: We continue to make the recommendations stated above.
Responses to the findings and recommendations follow:

Finding 8a.

         We do not agree that AU complied with AmeriCorps citizenship eligibility
          requirements.

              o   It did not have citizenship documentation for one member,

              o   It was unaware that citizenship documentation for the member was
                  missing until December 2010, six months after the member’s July 2010
                  completion date, when it was preparing for a Corporation site visit. In
                  addition, it did not ensure that it received citizenship documentation for
                  the member until we identified the issue during fieldwork and notified AU
                  of the consequences of not having the citizenship documentation.

         We agree that AmeriCorps Provisions do not require programs to make or retain
          copies of the actual documents reviewed to verify citizenship eligibility. However,
          AU’s procedure during the agreed-upon procedures period was to identify the
          documents reviewed to verify citizenship on the Employment Eligibility (I-9) form
          and to retain copies of the documents reviewed in the member file. The member
          cited in the finding had an I-9 form, which showed that AU had reviewed the
          member’s driver’s license and Social Security card and copies of these
          documents were retained in the file for this member.

         If followed, AU’s citizenship verification procedure requiring all citizenship
          documentation prior to offering an applicant a position as an AmeriCorps
          member would ensure that citizenship documentation is obtained for all
          members. However, AU did not follow its procedure for the member cited in the
          finding.

Finding 8e.

         AU misunderstood the condition of this finding The statement in the draft report
          that AU did not conduct handwritten end-of-term evaluations was a statement
          describing AU’s method for delivering the end-of-term evaluations in PY 2010-


                                             40
          2011 rather than a statement that handwritten end-of-term evaluations were a
          requirement. As discussed in the finding, AU’s electronic evaluation format
          lacked space to document the date the evaluations were provided and to
          document member receipt. As result, we could not determine if the PY 2010-
          2011 members received end-of-term evaluations.

Finding 8g.

         While the AmeriCorps Provisions do not specifically require certifying program
          official or member signatures on enrollment and exit forms, the hard copies of the
          forms contain places for members and program officials to sign and date the
          forms and a place for the program official to complete the education award
          eligibility certification. As discussed in the finding, without these signatures, we
          could not verify that the completed forms were consistent with member and
          management intentions. Further, we could not verify when the education award
          eligibility certification was complete for all members.

Recommendations

         We continue to make the recommendations stated above. During resolution, the
          Corporation should ensure that the corrective actions implemented by AU are
          effective.




                                             41
           APPENDIX A

AIDS United Response to Draft Report
                                                                                                                         
 
June 21, 2012 
 
Stuart Axenfeld 
Assistant Inspector General for Audit  
Corporation for National and Community Service 
1201 New York Ave., NW 
Suite 830 
Washington, DC 20525 

Re:     AIDS United’s Response to OIG Draft Report of Audit 

Dear Mr. Axenfeld: 

AIDS United would like to thank you for the opportunity to respond to the Corporation for National & Community 
Service (the “Corporation”) OIG Findings described in the Draft Audit Report (“Draft Report”).  The Draft Report was 
issued to AIDS United on May 21, 2012.  We would also like to acknowledge Cotton & Company LLP for the professional 
and efficient manner in which its personnel conducted this audit. 

AIDS United understands the importance of complying with federal regulations and the Corporation’s expectations 
regarding the distribution and use of federal grant awards.  To this end, AIDS United continually evaluates its internal 
systems and protocols to ensure maximum accountability and transparency in all of its federally funded programs.  
Throughout this audit process, we have worked cooperatively and collaboratively with the Corporation to improve these 
internal processes.  As a result of the information we received during the audit, we have already implemented a number 
of initiatives, which we are confident will result in improved oversight and compliance, both at the primary and 
subgrantee level.  AIDS United also looks forward to working with the Corporation and its audit resolution specialists 
over the coming months with the objective of reaching a final resolution in the most efficient manner possible.  

Included below are AIDS United’s responses to the OIG Findings.  The responses are grouped together according to the 
same numbering system as the Compliance Findings and questioned costs identified in the Draft Report.  In some 
instances, AIDS United concurs with the Findings.  In others, AIDS United disputes the Findings and/or questioned costs.  
Where AIDS United does not concur with the OIG’s conclusions, the responses set forth AIDS United’s rationale.  Thank 
you again for your assistance, and please do not hesitate to contact me if you have any questions.   

 

Sincerely, 

 

Victor A. Barnes 
Interim President and CEO 
 

 

 
                                                              
 

 

Finding 1: AU and its subgrantees did not comply with the AmeriCorps requirements for National Service Criminal 
History Checks 
 
AIDS United (“AU”) concurs only in part with Finding 1.  AU does not concur with the questioned costs associated with 
this Finding. AU discusses its response to each subpart of Finding 1 below. 
 
         Third Party Vendor Checks 
 
AU concurs with Finding 1.a. 
 
AU is no longer relying on the previous vendor to conduct National Service Criminal History Checks (“NSCHC”).  AU has 
established the following procedures for processing state‐based checks: 
 
      AU directs covered individuals to the appropriate repository in each state to conduct their own checks. 
      AU requests copies of the results as documentation. 
      AU reviews results and determines whether the covered individual qualifies for service under NSCHC guidance. 
      AU communicates its ruling to the covered individual and reimburses the individual for expenses incurred to 
         conduct the check(s). 
 
Additionally, AU has identified a new vendor to perform NSCHC in compliance with the Corporation’s regulations.  This 
vendor works with several other National AmeriCorps programs.  AU submitted an Alternative Search Procedure (“ASP”) 
to the Corporation in December 2011 and is currently awaiting a response.  
 
AU continues to work with the Corporation to ensure that its practices comply with applicable regulations. 

         Member FBI Check and NSOPR Checks 
 
AU does not concur with Finding 1.b. or the questioned cost. 
 
AU takes reasonable steps to ensure that all AmeriCorps members undergo a criminal background check in accordance 
with the requirements of 45 CFR § 2540.204.  AU, in good faith, requested that the member initiate an FBI check prior to 
beginning service in accordance with Corporation guidance, and was cleared based on AU’s criminal history check 
process at the time. The member complied with instructions to initiate an FBI check.  
      The member submitted FBI check on April 14, 2011  
      The member was reimbursed for expenses related to the FBI criminal history check on 4/20/2011 
      Payment and request were received by the FBI processing center on 4/18/2011 
 
The member successfully completed the program and the hours of service required to earn an education award and 
should therefore not be required to repay it. 
 
As a best practice, and in an effort to more closely monitor criminal history checks, AU has made improvements to its 
master list used to track completion of criminal history checks for all AmeriCorps members, SIF subgrantee staff, and AU 
staff. AU’s Government Grants Compliance Officer (“GGCO”) regularly reviews the list and communicates the status of 
outstanding checks to the appropriate parties. Any items that remain outstanding for longer than 8 weeks are re‐
initiated. 
 
 
 
                                                   2 
AU does not agree with the OIG’s interpretation of 45 CFR § 2540.205, but otherwise concurs with Finding 1.c. 
 
AU does not agree with the OIG’s interpretation of 45 CFR § 2540.205.  45 CFR § 2540.205 requires AU to maintain the 
results of the NSCHCs but does not further specify the form in which the results must be kept. Thus, AU previously 
maintained a written memorandum documenting a member’s National Sex Offender Public Registry (“NSOPR”) check 
stating that a check was conducted, the results of the check, and consideration of the results in the selection process.  
AU believes this practice is sufficient to satisfy the regulatory requirements.    Additionally, a proposed revision to this 
rule clarifies that it is not necessary to retain the actual documents produced as a result of conducting the statewide or 
FBI criminal registry search component of the check.  Rather, it is sufficient to retain a summary of the results certified 
by an authorized program representative, along with written documentation that the results were considered in 
selecting the individual. 
 
As a best practice, however, upon receiving guidance from the auditor in December 2011, AU revised its practices and 
began to print the NSOPR screen shot for all covered individuals.  At the direction of the auditor, AU also took steps to 
reproduce screen shots for all individuals certified as previously having had the NSOPR but for whom a screen shot was 
not produced at the time. AU now retains screen shots for all covered individuals in their respective files and follows a 
written protocol that includes this screenshot process. 
 
AU continues to follow the most current guidance available from the Corporation in its day‐to‐day business regarding 
Corporation funded programs. 
 
         AU Staff Criminal Registry and NSOPR Checks 
 
AU concurs with Finding 1.d. but does not concur with the questioned cost. 
 
AU continually demonstrates an organizational commitment to compliance and operates in good faith that its efforts 
align with requirements of the Corporation and other funders. Corporation rules regarding criminal history checks have 
been evolving since 2007. Between 2007 and 2011, AU updated its practices on several occasions to reflect changes in 
these rules.  
 
While attending a Corporation grantee meeting in October 2011, AU recognized the need to further strengthen its 
criminal history check process for staff. In doing so, AU: 

       Altered its NSCHC protocols based on specific guidance received at the Corporation grantee meeting Held 
        October 19‐21, 2011 
       Communicated with all affected staff that they were required to undergo state‐based check(s) or FBI check on 
        October 26, 2011  
       The six identified staff have completed their checks and AU has received and retains the results. 
 
Based on information in the October 2011 presentation on NSCHC, AU used the NSOPR to indicate that NSCHC process 
was initiated. Corporation guidance states that while awaiting results of the criminal history checks, staff are not 
prohibited from working provided they are accompanied by someone who has cleared a criminal history check if they 
are in contact with vulnerable populations. AU staff working on the SIF grant do not come into contact with vulnerable 
populations.  Thus, such accompaniment is not required. Results of completed checks are available for review.   
 
For these reasons, AU believes that no costs should be questioned in connection with this Finding. 
 
AU does not agree with the OIG’s interpretation of 45 CFR § 2540.205, but otherwise concurs with Finding 1.e. 
 
While AU does not agree with the OIG’s interpretation of this regulation, it has taken steps to revise its policies to 
incorporate additional best practices.  As stated previously AU does not agree with the OIG’s interpretation of the 
regulation’s requirements.  45 CFR § 2540.205 requires AU to maintain the results of the NSCHCs but does not further 
                                                      3 
specify the form in which the results must be kept. Thus, AU previously maintained a written memorandum 
documenting a member’s NSOPR check stating that a check was conducted, the results of the check, and consideration 
of the results in the selection process.  AU believes this practice is sufficient to satisfy the regulatory requirements.    
Additionally, a proposed revision to this rule clarifies that it is not necessary to retain the actual documents produced as 
a result of conducting the statewide or FBI criminal registry search component of the check.  Rather, it is sufficient to 
retain a summary of the results certified by an authorized program representative, along with written documentation 
that the results were considered in selecting the individual. 
 
As a best practice, however, upon receiving guidance from the auditor in December 2011, AU revised its practices and 
began to print the NSOPR screen shot for all covered individuals.  At the direction of the auditor, AU also took steps to 
reproduce screen shots for all individuals certified as previously having had the NSOPR but for whom a screen shot was 
not produced at the time. AU now retains screen shots for all covered individuals in their respective files and follows a 
written protocol that includes this screenshot process. 
 
AU continues to follow the most current guidance available from the Corporation in its day‐to‐day business regarding 
Corporation funded programs. 
 
         Subgrantee National Service Criminal History Checks 
 
AU does not concur with Finding 1.f. or the questioned cost.  
 
The grant‐funded staff member completed an original NSCHC in early May 2011 in connection with the grant‐funded 
staff member’s employment as a City Supervisor for AU’s District of Columbia AmeriCorps team.  Documentation of this 
existing NSOPR was included in the employee’s file consistent with AU’s policy at the time.  As discussed in responses 
1.c. and 1.e. above, AU has a revised practice of retaining NSOPR screen shots for all covered individuals.    
 
45 C.F.R. 2540.203(c) states that for an individual who serves consecutive terms of service in a program with a break in 
service of 30 days or less, no additional check is required after the first term. 
 
The grant‐funded staff member had already completed a NSOPR check as a result of service with WAP in May 2011, and 
thus no additional NSOPR check was necessary.  After receiving guidance from the auditor, AU initiated and completed 
additional criminal history checks for this staff member in November 2011 consistent with AU’s response to Findings 1.c. 
and 1.e.  
 
AU does not agree with the OIG’s interpretation of 45 CFR § 2540.205, but otherwise concurs with Finding 1.g. 
 
AU operated with an understanding of the regulations regarding NSOPR that a memorandum stating that an NSOPR was 
conducted, was returned with satisfactory results, and results were considered in the selection process would suffice as 
documentation that the check was completed. 
 
Consistent with AU’s response to Findings  1.c., 1.e. and 1.f., upon receiving guidance from the auditor in December 
2011, AU immediately began to print the NSOPR screen shot for all covered individuals. At the direction of the auditor, 
AU also took steps to reproduce screen shots for all individuals certified as previously having had the NSOPR but for 
whom a screen shot was not produced at the time. As a best practice, AU now retains screen shots for all covered 
individuals, including any aliases discovered in completing criminal history checks, in their respective files and follows a 
written protocol that includes this screenshot process. 
 
AU continues to follow the most current guidance available from the Corporation in its day‐to‐day business regarding 
Corporation funded programs. 
 
 
 
                                                     4 
         SIF Subcontract National Service Criminal History Checks 
 
AU does not concur with Finding 1.h. or the questioned costs.  
 
NSCHC are not required for contractors engaged by AU or subcontractors engaged by SIF subgrantees.   AU has received 
guidance from the Corporation that the NSCHC requirements are applicable to grantees and subgrantees, but do not 
extend to subcontractors of subgrantees.  AU’s interpretation of the applicable regulations supports the same 
conclusion.   
 
Section III.E of the Grant Terms and Conditions states that “[t]he awardee must comply with, and require all subgrantees 
to comply with the requirements of CFR § 2540.200 ‐ 2540.207.”  CFR § 2540.200 provides that “[c]riminal history checks 
must be applied to an individual applying for, or serving in, a position for which an individual receives a Corporation 
grant‐funded living allowance, stipend, education award, salary, or other remuneration.”   
 
On several occasions the Corporation has informed AU that subcontractors engaged by SIF subgrantees are not subject 
to these NSCHC rules.  At the November 2010 Financial & Grants Management Institute Program entitled “National 
Service Criminal History Background Checks: The Basics Through the Challenges,” the Corporation  provided direct 
clarification on the Corporation’s position regarding covered individuals, stating that “[c]overed positions are those paid 
from either federal share or non‐federal share as identified on the grant and sub‐award budgets.”  The Corporation 
confirmed that contractors providing services are not covered individuals because they do not receive a salary.  In 
addition, at the October 2011 Social Innovation Fund Grantee Meeting, the Corporation recognized that “individuals 
receiving a salary, stipend, living allowance, or earning an education award through programs receiving assistance 
through the Corporation’s national service laws and programs are covered by the National Service Criminal History check 
rules, unless identified by the Corporation as not a covered individual.”  Furthermore, the July 2010 Frequently Asked 
Questions for National Service Criminal History Checks states that “[n]on‐staff positions on program grants paid as 
consultants or contractors are not subject to criminal history background checks.”   
 
The NSCHC requirements do not apply to contractors of AU or subcontractors of SIF subgrantees because: (1) 
subcontractors are entities contracted by subgrantees; (2) subcontractor staff do not fall under the Corporation’s 
definition of covered position; (3) the Corporation has specifically characterized subcontractors as exempt from these 
requirements to limit the scope and definition of covered positions to only the staff of SIF grantees and subgrantees 
directly named in grantee and subgrantee budgets.  
 
AU has sought and received confirmation from the Corporation regarding its understanding of the applicability of the 
NSCHC requirements to SIF subgrantee subcontractors.  On March 5, 2012, the Corporation confirmed in writing that 
criminal history checks as required under SIF are limited to the staff of AU (prime grantee) and the staff of AU’s 
approved subgrantees.  This requirement does not apply to vendors, contractors, or subcontractors that have contracts 
with AU or AU’s SIF subgrantees.  
 
AU has always conducted and will continue to conduct NSCHC on all AU staff and on all SIF sub‐grantee staff.  It 
continues to be AU’s position, consistent with Corporation guidance, that the subcontractors identified by the auditor 
are not subject to the NSCHC requirement.  The costs allocated to the subcontractors of the three audited subgrantees 
should not be questioned because AU has complied with the applicable regulations and has followed the guidance it 
received from the Corporation. 
 
         Response to Recommendations: 
 
1a. AU looks forward to working with the Corporation to ensure AU and its subgrantees conduct and maintain 
documentation to demonstrate that NSCHC are conducted on members and grant‐funded staff members and 
subgrantees.  AU plans to continue working with the Corporation to clarify guidance it has received regarding NSCHC 
and extension to subgrantee subcontractors. 
 
                                                    5 
1b. AU has updated its procedures for conducting and documenting NSCHC.  AU looks forward to receiving confirmation 
from the Corporation that its revised procedures are effective. 
 
1c. AU does not believe the member educational award should be disallowed and believes it would be inappropriate to 
seek recovery of the questioned education award, as it has already been granted to the AmeriCorps member after 
completion of the program requirements. 
 
1d. AU does not believe that any costs associated with this Finding should be disallowed. 
 
1e. AU does not believe that any AmeriCorps costs, and thus any administrative costs, associated with this Finding 
should be disallowed. 
 
1f. AU does not believe that any SIF costs, and thus any indirect costs, associated with this Finding should be disallowed. 
 
Finding 2: AU claimed unallowable indirect costs for itself and its SIF subgrantees 
 
AU concurs with Finding 2 but asserts that all questioned costs associated with this Finding have been resolved. AU 
discusses its responses to each subpart of Finding 2 below. 
 
AU concurs with Finding 2.a. but asserts that the questioned cost has been resolved.  
 
As discussed in the OIG Draft Report, upon learning of the indirect rate calculation issue, AU took immediate corrective 
action.  AU adjusted its records and reduced the amount of indirect costs claimed for the period ending September 30, 
2011.  AU initiated a correction by reducing the net amount of indirect costs claimed for December 31, 2011 by $43,474 
and on February 29, 2012 returned $25,747, the balance of excess indirect costs to the United States Treasury.   As 
demonstrated by the table below, AU made a total adjustment of indirect costs of $69,221.  Unallowable costs reported 
in the Finding at September 30, 2011 of $69,832 differed from the total amount reported by AU of $69,221 due to a 
$611 increase in allowable indirect costs reported in December 31, 2011. 
 
                                                              Federal Costs 
Description                                    Claimed         Allowable        Unallowable 
Indirect Costs Reported  – 9/30/11             $84,783             $14,951              $69,832 
Indirect Costs Reported  – 12/31/11            $41,309             $15,562              $25,747 
Indirect Cost Reduction  –  12/31/11           $43,474                $611                        
Indirect Costs Returned   – 2/29/12                                                     $25,747 
                                                                                                  
 
AU also submitted a budget revision request to the Corporation on March 2, 2012 to address the inconsistency between 
the 5.26 percent rate used to calculate federal costs and approved NICRA rate of 10.5 percent.   
 
All costs associated with this Finding have been resolved and thus no costs associated with this Finding should be 
disallowed. 
 
AU concurs with Finding 2.b. but asserts that the questioned cost has been resolved. 
 
AU originally awarded its SIF subgrantees a fixed administrative fee and did not obtain a NICRA for its subgrantees as 
required.  When AU learned of this error, it immediately took steps to revise its subgrantee budgets.   
On January 17, 2012, the Corporation provided AU with written approval of the following steps to move forward with 
changes in sub‐grantee reporting and recovery of indirect costs:  
      Subgrantees can charge indirect costs to SIF if they have a NICRA. 
      Subgrantees may submit a budget revision to AU for approval to report as direct costs certain costs that were 
         previously charged to the grant as indirect provided AU and sub‐grantees can identify the specific cost amounts 
                                                     6 
        and determine that the process for reallocation is consistent with treatment of costs under OMB A‐122 (2 CFR 
        230) using the Direct Allocation Method.   
       Subgrantees could submit a budget revision to AU for approval to redirect budgeted indirect cost to additional 
        direct line items not previously identified to fully expend awarded funds as direct costs. 
       Subgrantees that did not did not have a NICRA or seek reallocation of indirect costs by either of the other two 
        budget revision methods would be required to repay to AU funds charged to and paid in their indirect lines in 
        previous financial reporting periods. 
       Grantees that obtain a NICRA can charge indirect from the time the NICRA is granted forward (budget 
        modification requests must be submitted to substantiate the change). 
 
OMB Circular A‐122 (2 CFR 230) allows for direct allocation of all expenses (except general administration and general 
expenses) as direct costs. These direct costs often include rent, insurance, depreciation etc. These expenses are 
allocated based on a formula derived by each organization and incurred as direct costs. Because these costs are 
identifiable to a specific program and allocated using an appropriate base formula within the organization, their 
treatment is consistent with other direct costs.  

Allocating financial and certain administrative expenses as a direct cost is allowable under OMB Circular A‐122 (2 CFR 
230) using the Direct Allocation Method.   
 
AU advised its SIF subgrantees that they were unable to charge indirect costs to the SIF grant without a NICRA and 
recommended that SIF subgrantees without NICRAs submit budget revision requests based on OMB Circular A‐122 (2 
CFR 230) and upon guidance AU received from the Corporation.  
 
AU will continue to monitor its subgrantees to ensure appropriate documentation of direct expenses specifically related 
to financial and administrative oversight. Additionally, AU’s Compliance Officer will include a review of each sub‐
grantee’s allocation formula as part of the annual monitoring process. Deviations from the formula will be included as 
findings in monitoring reports to the subgrantees. AU’s Compliance Officer will work closely with subgrantees to address 
any such findings when necessary. 
 
As a result of these revisions, all costs associated with this Finding have been resolved and thus no costs associated with 
this Finding should be disallowed. 
 
         Response to Recommendations: 
 
2a. AU has developed controls to ensure that indirect costs claimed are properly calculated and in accordance with its 
approved budget and SIF regulations.  AU has relied on SIF regulations to strengthen its internal processes for calculating 
indirect costs claimed for SIF.  Indirect cost calculation on SIF subawards is limited to $25,000 for each subaward with 
the federal share calculated using the percentage of federal subaward costs awarded in the SIF grant. 
 
2b. AU monitors the subgrantees use of the Direct Allocation Method.  AU collects copies of NICRAs issued to 
subgrantees as documentation that they are eligible to charge indirect costs to the grant. Without a NICRA, subgrantees 
cannot charge indirect costs.  Consistent with AU’s subgrantee monitoring plan, AU requires each subgrantee to submit 
monthly general ledger reports and reconciles financial reports to the GL.  AU continues to closely monitor subgrantees 
that do not have a NICRA in their use of the Direct Allocation Method to ensure conformity with OMB Circular A‐122 
standards through its desk and on‐site monitoring processes. 
 
2c. AU looks forward to sharing information with its Program Officer regarding its controls for indirect costs. 
 
2d. AU does not believe that any costs, and thus any indirect costs, associated with this Finding should be disallowed. All 
Subgrantee costs related to this Finding have already been reallocated through the budget revision process. All AU costs 
associated with this Finding have already been resolved. 
 

                                                    7 
Finding 3: AU and one subgrantee claimed unallowable federal and match costs 
 
AU concurs only in part with Finding 3 and does not concur with the associated questioned costs.  AU discusses its 
response to each subpart of Finding 3 below. 
 
AU concurs in part with Finding 3.a. but believes a determination with respect to questioned costs should await 
additional guidance from the DC Department of Employment Services (“DOES”). 
 
AU has historically operated with the understanding that it must contribute to the DC Unemployment Fund on behalf of 
its AmeriCorps members.  The District of Columbia Unemployment Compensation Act (“the Act”) requires employers to 
contribute to the District of Columbia Unemployment Fund if the employer employs one or more individuals in any 
employment in the District of Columbia. D.C. Code § 51‐101.  Furthermore, the Act defines “employment” as a service by 
any “individual who, under the usual common‐law rules applicable in determining the employer‐employee relationship, 
has the status of an employee,” or who performs a service for remuneration. D.C. Code § 51‐101 (2)(A)(i)(II) (2001).1  
This determination is fact specific and thus, in the absence of clear guidance from the DC Office of Employment Services, 
AU operated under the belief that contributions were required by law.  
 
In an effort to comply with DC unemployment compensation law, AU has historically contributed to DC unemployment 
compensation fund for its employees and AmeriCorps members.  In an effort to mitigate the risk of successful 
unemployment claims for AmeriCorps members, AU has required its members to complete a Member Waiver of 
Unemployment Benefits and Claims form.    

The waiver process was undertaken to mitigate potential future unemployment compensation claims in order to more 
effectively manage the negative impact of claims charged to AU’s unemployment compensation reserve balance and to 
insure the lowest ongoing unemployment compensation tax burden to the AmeriCorps program.  Despite this waiver 
process, AU received AmeriCorps member unemployment compensation claims in 2007, 2008, and 2010.

AU provided documentation of three unemployment compensation claims filed by former AmeriCorps members at the 
OIG audit exit conference. One member was successful in receiving unemployment compensation as a result of the 
claim filed.   

AU is seeking official guidance from DOES to determine whether AU is required to contribute to the Unemployment 
Compensation Fund on behalf of AmeriCorps members.  As of the date AU submitted this response, AU had not yet 
received a final response. Upon receiving official guidance from DOES, AU  plans to reevaluate its current policy and 
make any revisions necessary in order to ensure its policy complies with the both the laws of the states (including DC) 
where AU places AmeriCorps members and the applicable AmeriCorps regulations.   

AU concurs with Finding 3.b. but asserts that the questioned cost has been resolved. 
 
As discussed in the OIG Draft Report, upon learning of a September 2011 personnel cost reporting issue, CP adjusted its 
records on January 12, 2012 and reduced the amount of Federal personnel costs reported in September 2011 by $7,267.   
CP initiated the correction by reducing the amount of Federal personnel costs claimed as part of its monthly expense 
reimbursement reporting beginning with its November 30, 2011 report. The November 2011 report confirmed the 
reduction of $7,267 in Federal personnel costs reported for reimbursement and resolved the questioned cost.   
 
CP discovered and revised the September GL and  financial reporting to AU as part its GL and financial reporting 
reconciliation process during the transition from advance to monthly reimbursement (as noted in Finding 6) and as a 
result of compliance monitoring and technical assistance provided by AU.  
 
                                                            
1
  The Act provides only limited exceptions for services that will not be considered employment for the purposes of the Act.  These 
exceptions do not include AmeriCorps volunteers, or other compensated volunteers. See D.C. Code § 51‐101 2(E). 

                                                         8 
AU’s monthly monitoring of grant activity and reconciliations of GL reports with expense reimbursements ensure that 
errors such as this are caught and addressed immediately.  AU is working with CP to strengthen internal processes for 
proper documentation in CP’s accounting system for adjustments that affect personnel costs.  
 
AU does not concur with Finding 3.c. 
 
AU has made every effort to collect underlying documentation of matching costs including pay and fringe rates of staff, 
space rental rates attributed to AmeriCorps activities, mileage, and other in‐kind costs of hosting an AmeriCorps 
member. The Host Agency Agreement provides space for host agency staff to document the costs used to calculate in‐
kind contributions to the program. 
 
45 CFR § 2543.23 requires third party in‐kind contributions used to satisfy a cost‐sharing or matching requirement be 
verifiable from grantees and subgrantees or cost‐type contractor records. 
 
      AU has had regular programmatic site visits by the Corporation that did not result in compliance findings related 
         to documentation of in‐kind match costs. 
      In the spirit of continuous quality improvement, AU has maintained an ongoing working relationship the 
         Corporation and discussed opportunities to strengthen its program. 
      In the PY 2011‐2012, AU strengthened its in‐kind reporting process by creating a monthly time sheet form for 
         supervisors to complete in addition to their quarterly in‐kind tracking forms. The new time sheet required 
         supervisors to list their total number of working hours per day (to match with their agency time keeping records) 
         and to indicate the number of hours per day spent on member supervision. 
      AU worked with its Host Agencies to ensure consistent submission of timesheets and in‐kind reports as 
         documentation of match in the current PY reporting period. 
      AU created detailed time logs, which are part of the underlying documentation discussed above, which were 
         audited at the WAP operating site. These logs were found to be in compliance by the auditors. 
 
AU does not concur with Finding 3.d. or the questioned cost. 
 
See AU responses to Findings 1.b., 1.d., and 3.a. 
 
AU does not concur with Finding 3.e. or the questioned cost. 
 
See AU response to Finding 1.d. 
 
         Response to Recommendations: 
 
3.a. AU has requested that DOES perform a review of AU’s past contributions and issue a ruling regarding the status and 
requirement of coverage for AU’s AmeriCorps members.  AU has submitted amended quarterly unemployment 
compensation tax reports for the 2 year audit period to DOES and has requested the return of unemployment 
compensation tax previously remitted to DC for its AmeriCorps members. 
 
3.b. AU has strengthened its in‐kind reporting process by creating a monthly time sheet form for supervisors to 
complete in addition to their quarterly in‐kind tracking forms to enhance in‐kind reporting. 
 
3.c. AU now requires SIF subgrantees to submit monthly financial reports for expense reimbursement, including general 
ledger reports, to closely monitor grant activity.  
 
3.d. AU will work proactively with the Corporation to ensure the implementation of controls for unemployment costs, 
federal and match costs, and subgrantee financial management systems. 
 

                                                    9 
3.e. AU does not believe that any costs associated with this Finding should be disallowed. All CP subgrantee costs related 
to personnel charges were corrected during the grant year.  AU believes it acted prudently in contributing to the DC 
unemployment compensation fund in order to comply with DC law. 
 
3.f. AU does not believe that any indirect or administrative costs associated with this Finding should be disallowed 
consistent with AU’s response in 3.e. 
      
Finding 4: Subgrantee timekeeping systems did not comply with federal requirements, and some timesheets were 
undated. 
 
AU concurs only in part with Finding 4 and does not concur with the questioned cost. 
 
      AU does not concur with the Finding and questioned costs relating to sub‐grantee CP.  The questioned costs of 
         $89 in this Finding have already been mitigated as part of AU’s sub‐grantee indirect cost budget revision and 
         oversight plan outlined in AU’s response to Finding 2.b above.  The remaining questioned costs of $898 were 
         previously revised by CP in advance of the January 2012 OIG audit site visit as outlined in AU’s response to 
         Finding 3.b above. 
      AU concurs with the Finding relating to timesheets for sub‐grantee AC.  As indicated in the Draft Report, AC has 
         proactively updated its timesheet reporting practices to include space for the names of the specific grants 
         worked on and for the daily allocation of hours worked. 
      AU concurs with the Finding relating to timesheets for sub‐grantee WAP.  AU’s GGCO will work closely with WAP 
         to ensure that its timekeeping practices comply with the requirements of OMB Circular A‐122, Attachment B, 
         Paragraph 8.m. 
      AU does not concur with the Finding relating to timesheet signature dating by AU staff.  AU’s existing processes 
         regarding logging time and electronic backup of source data include multiple levels of oversight and approval.  
         AU believes that these processes comply with the reporting requirements of OMB A‐122, Attachment B 
         Paragraph 8.m (2 CFR 230), which provides for acceptable after‐the‐fact reporting of employees’ actual activity. 
         As a further best practice, AU has recently added a date field that will be completed by both staff and 
         supervisors as part of their timesheet completion procedures. 
 
         Response to Recommendations: 
 
4 a‐c. AU will work closely with the Corporation to further strengthen its timesheet monitoring procedures for both AU 
and subgrantee staff to ensure accurate recording and dating of personnel activity. 
 
4.d. AU does not believe that any costs associated with this Finding should be disallowed.   
 
Finding 5: Subgrantees did not have adequate monitoring procedures to ensure subcontractor compliance with SIF 
regulations and the allowability of subcontractor claimed costs. 
 
AU concurs with Finding 5, however, AU does not believe any subcontractor claimed costs should be disallowed. 
 
AU has implemented a number of initiatives designed to improve communication and strengthen the relationship 
between AU, its subgrantees, and their subcontractors.  To accomplish these objectives, AU hired a GGCO on March 1, 
2012.  The GGCO has developed more comprehensive sub‐grantee/sub‐contractor agreements and has maintained 
consistent contact with subgrantee representatives regarding their compliance obligations.   
 
AU’s GGCO has worked closely with WAP and AC staff to strengthen their contracts and increase their financial 
transparency and accountability in Year Two of the grant.  WAP’s fiscal reporting process already includes frequent 
review of interim financials.  AU’s GGCO will continue to work with WAP to supplement these existing processes with 
stronger documentation protocols.   
 
                                                   10 
AU’s GGCO also worked with subgrantee AC to strengthen its subcontracts to include additional measures to enhance 
accountability and transparency. AC has moved to reimbursement and monthly financial reporting for its 
subcontractors, and is currently strengthening its monitoring procedures to more closely evaluate subcontractors’ 
compliance with applicable federal regulations. 
 
AU’s GGCO will similarly work with all other AU SIF grantees to strengthen their processes to ensure federal funds are 
used appropriately and in compliance with applicable federal standards. AU believes that this continued course of 
conduct will ensure subcontractor compliance with relevant federal regulations. 
      
         Response to Recommendations: 
 
5a‐c. AU will work proactively with its subgrantees to develop enhanced procedures to ensure that costs charged by 
their subcontractors comply with applicable federal regulations. 
 
Finding 6: AU and its subgrantees did not have procedures to ensure that advances were disbursed in a timely 
manner.   
 
AU concurs with Finding 6.  
 
In March 2011, AU structured its sub‐grantee awards as three advance payments modeled on AU’s existing non‐
governmental grant making practices.  In July 2011 after consultation with the Corporation, AU proactively transitioned 
to a reimbursement process for subgrantee payments.  The transition period ran from July 2011 through October 2011.  
As indicated in the Draft Report, AU returned a substantial portion of advanced funds following the transition period and 
its cash balance as of September 30, 2012 matched federal expenditures.   
 
During the entire advance period, AU subgrantees provided AU with periodic general ledger and budget spending 
reports to demonstrate that expenditures claimed matched the cash balance on the September 2011 FFR.   However, AU 
agrees that WAP’s and CP’s contract monitoring procedures were inadequate and failed to ensure that advances were 
disbursed in a timely manner.  To remedy these deficiencies, AU’s GGCO has begun working closely with WAP and AC 
staff to strengthen their contracts monitoring processes to ensure that all advances are disbursed in a timely manner.   
AU’s GGCO is similarly working with all other AU SIF grantees to strengthen their processes to enhance contract 
monitoring and ensure that all advances are disbursed in a timely manner and in compliance with applicable federal 
standards.  AU is confident that further cooperation and communication between AU and its subgrantees will result in 
increased financial compliance in Year Two of the grant. 
       
         Response to Recommendations: 
 
6a. Effective November 1, 2011, AU transitioned from advance to monthly reimbursement to its subgrantees. 
 
6b. AU will encourage its subgrantees to move from advance to reimbursement for their subcontractors. AU will also 
work with subgrantees to minimize the time elapsing between receipt and disbursement of funds advance by 
subgrantees to subcontractors. 
 
6c. AU will work with the Corporation to ensure the implementation of controls for subgrantee and subcontractor 
reimbursement procedures 
 
6d. AU is currently unaware of any subgrantee payments to subcontractors that have not been disbursed in a timely 
manner.  If, however, as part of its review and monitoring of its subgrantees AU learns of any payment not disbursed in 
a timely manner it will work with the subgrantee and the Corporation to calculate and recover any interest earned on 
these payments and return the interest to the Department of Health and Human Services payment management 
system. 
 
                                                   11 
Finding 7: AU’s subgrantee agreements included conditions that did not comply with SIF regulations. 
 
AU does not concur with Finding 7.  
 
In 2011, the Corporation Grants Officer reviewed AU’s subgrantee agreement (and indicated that others at the 
Corporation had done so as well) and reported to AU that because the grant agreement was in effect for three years, the 
match fundraising objectives should be realized by the end of the three year period.  Additionally, AU staff discussed 
with the Corporation Grants Officer AU’s concerns that because the subgrantees’ grant period was offset from AU’s 
grant period, the Corporation would allow AU to enter a no‐cost extension to allow the subgrant term to conclude in a 
manner consistent with the end of the subgrant funding cycle. As a result of this inquiry, the Corporation Grants Officer 
recommended that AU issue an amendment to the subgrant agreement language to remove the “annual” language 
related to match fund raising in the original subgrant agreement.  AU complied with the Corporation guidance and 
removed the annual fundraising match requirement language from its subgrant agreements. 
 
However, in order to resolve the issue raised by the OIG, AU is seeking additional guidance from the Corporation and is 
prepared to issue a clarifying amendment to its subgrant agreements should the Corporation determine that match 
funds requirements must be fully realized on an annual basis. 
 
Additionally, AU’s GGCO has strengthened the subgrantee monitoring process, which already includes a monthly review 
of financial reports, comprised of expenditures on all three funding streams and general ledger reports documenting 
revenue and expense on all three funding streams, by adding a “dashboard” which is returned to each subgrantee 
monthly. The dashboard provides subgrantees a clear picture of the status of their progress to date, budget to actual 
reporting on expenditures in all three funding streams, budget to actual reporting on Local Match revenue, and overall 
financial performance. 
 
         Response to Recommendations: 
 
7a‐c. AU will work with the Corporation to identify the appropriate Matching Fund Requirements for its subgrantee 
agreements, make any necessary revisions, and implement any amended agreements.  
 
Finding 8: AU did not comply with certain AmeriCorps and SIF requirements. 
 
AU concurs only in part with Finding 8.  AU discusses its response to each subpart of Finding 8 below. 
 
AU does not concur with Finding 8.a. 
 
AU complies with AmeriCorps and SIF requirements for citizenship eligibility.  AU has a robust citizenship verification 
process and operates its AmeriCorps program in accordance with 45 CFR § 2522.200 and 2009 AmeriCorps Grant 
Provisions requirements.  
 
45 CFR § 2522.200, states that every AmeriCorps participant is required to be a citizen, national, or lawful permanent 
resident alien of the United States. 45 CFR § 2522.200 (c) requires primary documentary proof of U.S. citizen or national 
status, which may be shown by a birth certificate, United States passport, or certificate of naturalization issued by the 
Immigration and Naturalization Service.  Further, 2009 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special 
Provisions, Subsection G.1, Recordkeeping, states that grantees must maintain records sufficient to establish that each 
member is eligible to participate. The Corporation does not require grantees to make or retain copies of the actual 
documents used to confirm citizenship, so long as the grantee’s process of identifying reviewed documents and 
maintaining a record is consistent. 
 
AU’s citizenship verification process meets these requirements. 
          


                                                   12 
       The AU Supplemental Member Application requires individuals to submit either a passport OR a driver’s license 
        AND birth certificate in order for their application to be deemed complete and passed along to an Operating 
        Site for review. If a member does not have a passport and one of either the driver’s license or birth certificate 
        documents available at the time of application, AU will temporarily accept a Social Security card in place of 
        either the driver’s license or birth certificate.  AU allows this flexibility so that the application review process can 
        begin, but the member is informed that they cannot be offered a position on a team until we receive all of the 
        required documentation.  
       Documentation is reviewed for expiration dates (AU does not accept expired IDs). 
       A visual check of the member’s ID is conducted at the Pre‐Service registration table (AU staff complete a 
        spreadsheet with initials to indicate visual check was completed). 
       I‐9 form is completed by members on site at Pre‐Service Meeting. 
       Member I‐9 forms and IDs are submitted to VP of Operations for certification after Pre‐Service but before 
        payment of any stipend for member is established. 
       I‐9 forms and ID are filed in locked member finance payroll files. 
 
AU’s citizenship verification process ensures that citizenship requirements are met and proper records are maintained.  
The member in question represents an isolated incident.  The member was unable to comply with AmeriCorps 
expectations due to extended personal illness.  AU was able to satisfy the auditor’s inquiry and citizenship verification 
during the field work stage of the audit.  
 
AU concurs with Finding 8.b. 
 
AU has procedures to ensure member timekeeping complies with AmeriCorps Provisions and applicable OMB Circulars.   
 
AU’s process for monitoring timesheets is as follows: 
 
     AU staff, team coordinators, and supervisors monitor for member signatures on timesheets. 
     AU staff reviews all timesheets to ensure compliance with requirements prior to exiting a member. 
 
AU encourages and trains members to enter their service hours in personal time logs every day they have activity to 
report.  By design, member activities often vary as frequently as daily to ensure diversity of experiences within the 
service year.  Thus, the timesheets are to be completed on a rolling basis to accurately reflect member activities.  AU has 
instructed members to complete their timesheets by the 1st day of the following month so that supervisors can approve 
their timesheets in a timely fashion. Thus, for the timesheets sampled, the members entered their electronic signature 
and completion date after completion of each activity scheduled during the timesheet period, rather than after all 
service hours were logged for the month beforehand. By logging time after each scheduled activity, members ensure 
timesheets are completed routinely and accurately.  Members record their service hours continually throughout the 
service year, therefore the practice of signing and dating time logs does not imply that members recorded hours prior to 
completing service. 
 
Supervisors time‐stamp the member time log files with the date approved only after the service hours have occurred 
and are recorded by the members.  AU’s monitoring and guidance has been focused on two primary factors (1) ensuring 
that timesheets are accurate (thus providing guidance that members should enter hours after they are served with dual 
certification by the supervisor occurring after the fact) and (2) monitoring service hours to ensure that the minimum 
number of service hours is completed by each member at the end of the service year.  
 
Further, as a result of the auditor’s finding, AU reviewed its current timekeeping process with the goal of incorporating 
additional best practices and is currently soliciting competitive bids from electronic timesheet vendors for use in PY 
2012‐2013. These systems will eliminate the chance that a member’s hours are approved without their electronic 

                                                     13 
signature. The systems being reviewed comply with AmeriCorps Provisions for electronic timekeeping and are in use by 
other National Direct and State AmeriCorps grantees.  
 
AU has strengthened the member time reporting process so members’ and supervisors’ electronic signatures and dates 
align with, or follow, the last day of service for the period being reported. This process enables AU to actively monitor 
compliance that members have already served the hours being reported to AU. In PY 2011‐12, AU trained members to 
only sign timesheets after the completion of all hours logged in the time period. AU currently monitors timesheets to 
ensure that signatures and dates comply with instructions provided at Pre‐Service training.
 
AU concurs with Finding 8.c. 
 
The Corporation’s AmeriCorps Program Officer notified AU during a January 2011 programmatic site visit that member 
contracts did not include all prohibited activities specified in 45 CFR § 2520.65.  After that visit, AU worked with its 
AmeriCorps Program Officer to make substantial changes to its member contract to ensure that all prohibited activities 
are included in the contract, Host Agency Agreement, Operating Site Agreement, and Risk Assessment Checklist. 
 
AU is currently revising member, Operating Site, and Host Agency agreements (contracts) for PY 2012‐13. These 
agreements will all include the same comprehensive list of prohibited activities. 
 
AU concurs with Finding 8.d. 
 
AU worked closely with the Corporation’s AmeriCorps Program Officer to update its Policies and Procedures Manual to 
require AU to send Member Agreements to members via email by August 1, at least one week before the Pre‐Service 
meeting.  Members will be required to review the document and bring a complete, signed version to the Pre‐Service 
meeting.  Agreements will be collected on the first day of service. This process will continue for the 2012‐13 service year.  
This revised procedure complies with 2009 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, 
Subsection D.2, Member Contracts.  The AmeriCorps grant provisions directs grantees to ensure that contracts are 
signed before commencement of service, so the members will be aware of their rights and duties. 
 
AU does not concur with Finding 8.e. 
 
AU conducts its end‐of‐term member performance evaluations in accordance with the requirements of the AmeriCorps 
Grant Provisions.  45 CFR § 2522.220 states that a participant will only be eligible to serve a second or additional term of 
service if that individual has received satisfactory performance review(s) for any previous term(s) of service in 
accordance with the requirements of  the participant performance review (45 CFR § 2522.220(d)). The participant 
performance review process requires AmeriCorps programs to evaluate the performance of a participant mid‐term and 
upon completion of a participant's term of service for the purposes of determining participant’s eligibility for a second or 
additional term of service and/or for an AmeriCorps educational award.  The end‐of‐term performance evaluation must 
assess: (1) whether the participant has completed the required number of hours; (2) whether the participant has 
satisfactorily completed assignments, tasks or projects; and (3) whether the participant has met any other performance 
criteria which had been clearly communicated both orally and in writing at the beginning of the term of service. 
 
2009 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection D.4, Performance Reviews, 
requires grantees to conduct and keep a record of at least a midterm and end‐of‐term written evaluation of each 
member’s performance. 
 
The Corporation addresses the requirements for performance evaluations in EAP (Education Award Programs) Member 
Performance Evaluation FAQs.  Grantees may determine the format and contents of their evaluation to meet their needs 
and the needs of their members as long as these minimum requirements are in place.  Programs should maintain 
written documentation that the member received the mid‐term and final evaluation as described in the regulations, i.e. 
whether the participant has completed the required number of hours; satisfactorily completed assignments, tasks or 


                                                    14 
projects; and has met any other performance criteria which had been clearly communicated both orally and in writing at 
the beginning of the term of service. 
 
Neither 45 CFR § 2522.220, 2009 AmeriCorps Grant Provisions, or the EAP Member Performance Evaluation FAQs 
requires evaluations to be hand written. Each only requires written documentation.  AU’s performance evaluations are a 
written form of documentation. AU’s Corporation AmeriCorps Program Officer was given a copy of this evaluation in 
January 2011 during a site visit. The Program Officer did not find a deficiency in the form AU was using. AU has 
communicated with its Corporation AmeriCorps Program Officer about the evaluation requirements identified by the 
auditor.  
 
Neither the provisions nor the regulations mandate how evaluations should be communicated to members. However, as 
stated above, AU’s internal procedure is to actively resolve and report back any “poor or unsatisfactory reviews” with 
members and supervisors prior to issuing a full education award. 
 
AU concurs with Finding 8.f. 
 
AU’s record retention policy was developed prior to receiving a Social Innovation Fund award.  Prior to receiving the SIF 
award, AU’s retention policy was in compliance with its AmeriCorps grant requirements (three year awards). To comply 
with regulations pertaining to the SIF program and its potential to be a five year award, AU has revised its record 
retention policy to reflect the requirements of the Social Innovation Fund.  AU’s new policy requires records be retained 
for a period of 9 years. 

AU does not concur with Finding 8.g. 
 
The AmeriCorps provisions do not require supervisory signatures or paper copies for exit forms.   
The 2010 AmeriCorps Provisions address end of term procedures in Section IV.C., Member Recruitment, Selection, 
and Exit as follows: 

       Completion of Terms of Service. The grantee must ensure that each member has sufficient opportunity to 
        complete the required number of hours of service to qualify for their education award. Members must be exited 
        within 30 days of the end of their term of service. Should a program not be renewed, a member who was 
        scheduled to continue in a term of service may either be placed in another program where feasible, or a member 
        may receive a pro‐rated education award if the member has completed at least 15% of the service hour 
        requirement. 
       Member Exit. In order for a member to receive a post‐service education award from the National Service Trust, 
        the grantee must certify to the National Service Trust that the member satisfactorily and successfully completed 
        the term of service, and is eligible to receive the education benefit. The grantee (and any individual or entity 
        acting on behalf of the grantee) is responsible for the accuracy of the information certified on the end‐of term 
        certification. 
      
Additionally, MyAmeriCorps Frequently Asked Questions (dated October 2, 2009), Miscellaneous, Are we still required to 
retain paper copies of the enrollment and exit form?, states that if both the member and the program certify an 
enrollment or exit form in the MyAmeriCorps Portal (“Portal”), the program is not required to retain paper copies of the 
exit form, because the Portal serves as the system of record for enrollment and exit forms. 
 
AU completes exit forms in compliance with the expectations of the Corporation.  The forms, which are created and 
provided by the Corporation, do not have a space indicating that member supervisors are to sign off on the forms.  
Forms are signed by a certifying official, though the form does not specify whether the official must be the member’s 
supervisor.  
 



                                                   15 
As part of the AU exit process, AU staff exits a member from eGrants, an online system linked to the Portal. Upon doing 
so, the entry is electronically certified. Use of eGrants meets the requirements listed in MyAmeriCorps Frequently Asked 
Questions. 
 
AU verifies education award eligibility annually. Before exiting a member from eGrants, AU staff review the results from 
the end of year member performance evaluations and to ensure the member’s timesheet approval file has been fully 
completed by their Host Agency supervisor prior to starting the exit process. On the end of year member performance 
evaluations, HA supervisors evaluate whether a member performed satisfactorily, and then sign off on the total number 
of hours the member served. Together, this information is used to exit a member with their full education award.  This 
exit process meets the Corporation’s requirements because it used the Corporation’s exit form and follows guidelines 
from MyAmeriCorps Frequently Asked Questions. This system is efficient and consistent with the Corporation’s goal of 
ensuring members are properly exited and evaluated. 
 
         Response to Recommendations: 

8a. AU has strengthened its procedures to ensure that it complies with AmeriCorps requirements for citizenship 
verification and that appropriate documentation is retained in files for all members.  AU will continue to work with the 
Corporation to ensure its procedures incorporate recommended best practices. 

8b. AU has strengthened its member timekeeping procedures in order to ensure that member timesheets are 
maintained in accordance with Corporation requirements.  AU welcomes additional guidance from the Corporation 
regarding when members should sign and date timesheets. 

8c. AU looks forward to receiving verification from the Corporation regarding its strengthened procedures. 

8d. AU looks forward to receiving verification from the Corporation regarding its strengthened procedures. 

8e. AU looks forward to receiving verification from the Corporation regarding its strengthened procedures. 

8f. AU has developed a record retention policy it believes complies with the Corporation requirements. AU looks 
forward to receiving verification from the Corporation of this policy. 

8g. AU looks forward to receiving verification from the Corporation regarding its record retention policy. 

8h. AU defers to the Corporation regarding this recommendation.  

 

 




                                                    16 
                              APPENDIX B

Corporation for National and Community Service’s Response to Draft Report
                              NATIONAL &
                              COMMUNITY
                              SERVICEtut

To:

From:                                  ~~M~~1Yfanagement

Cc:           Dougl          , Acting CFO
              Valerie Green, General Counsel
              Claire Moreno, Senior Grants Officer for Policy & Audit

Date:         June 21, 2012

Subject:      Response to OIG Draft of Agreed-Upon Procedures for Corporation
              For National and Cormnunity Service Grants Awarded to
              AIDS United


Thank you for the opportunity to review the draft Agreed-Upon Procedures report of the
Corporation's grants awarded to AIDS United (AU). We will work with the grantee to
develop corrective actions. We will respond to all fmdings and recormnendations in our
management decision when the audit working papers are provided and the final audit is
issued.
         APPENDIX C

 AGREED-UPON PROCEDURES FOR
SOCIAL INNOVATION FUND AWARDS
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                         OFFICE OF INSPECTOR GENERAL
                     DRAFT AGREED-UPON PROCEDURES FOR
                 SOCIAL INNOVATION FUND AWARDS TO GRANTEES
                           (INCLUDING SUBGRANTEES)
                                NOVEMBER 2011

This document provides the framework to be used in performing agreed-upon procedures engagements of
awards by the Corporation for National and Community Service (Corporation) to grantees and other
entities that distribute funds to subgrantees and have concurrent management responsibility over
Corporation programs performed by the subgrantees. These agreed-upon procedures are intended to be
flexible and may evolve or be modified during an engagement if the Office of Inspector General (OIG)
agrees to the sufficiency of revised procedures.

These agreed-upon procedures engagements will be performed under the American Institute of Certified
Public Accountants (AICPA) Attestation Standards Section 201 and generally accepted government
auditing standards, with primary focus on Chapter 6 (or as amended by future issuances). The
Independent Public Accountant (IPA) should be alert to situations or transactions that could indicate
fraud, illegal acts, prohibited activities, or violations of grant provisions. When such information comes
to the IPA’s attention, the OIG Audit Manager (or other designated OIG task monitor) should be
contacted immediately.

This is a four-step process:

    1. Planning. The purpose of planning is to gain an understanding of the grantee and its policies and
       procedures, the grants, and subgrantees. Based on information acquired, the IPA prepares a
       planning memorandum for the grantee and each subgrantee selected for review. The planning
       memorandum should include justifications supporting the subgrantee sites selected for testing,
       milestone dates, and staffing assignments.

    2. Grantee Testing. The IPA will perform the agreed-upon procedures at the grantee.

    3. Subgrantee and/or Site Testing. The IPA will perform the agreed-upon procedures for each
       subgrantee/site selected during planning.

    4. Reporting. The purpose of this phase will be to prepare reports; apply quality control procedures;
       conduct an exit conference; and obtain management representations, if warranted.
                                                                                          WP
                                                                                Initial   Ref

                               I.   PLANNING

A. Preliminary

   1. For Social Innovation Fund (SIF) grants operating during the period
      under review, obtain from the OIG copies of the following
      background information for the grantee:

       a. A schedule of awards made to the grantee.

       b. Corporation Notice of Grant Awards and amendments.

       c. Federal Financial Reports (FFR) for all grants

       d. Department of Health and Human Services Payment Management
          System (PMS) reports showing grant drawdowns.

       e. Program applications narratives.

       f.   Detailed budgets and budget narratives for the period under
            review.

       g. Corporation monitoring reports of the grantee.

   2. Discuss with the Corporation’s Program Officer any areas of concern
      or interest that should be addressed by the agreed-upon procedures
      review, including inaccurate or late progress or final program reports,
      grant modification requests, indicators of possible fraud, and other
      noncompliance.

   3. Discuss with the Corporation’s Grants Officer any areas of concern or
      interest that should be addressed by the agreed-upon procedures
      review, including inaccurate or late progress or final program reports,
      grant modification requests, indicators of possible fraud, and other
      noncompliance.

   4. Arrange with the OIG Task Monitor to complete the Corporation’s
      information security and privacy training courses. These must be
      completed before the Corporation will grant access to its online
      systems.

   5. Obtain a VPN token from the OIG for remote access to the
      Corporation’s eGrants system.

   6. Schedule on-site planning work with the grantee. Request that they
      have the following available (preferably in electronic format):




                                                   1-1
                                                                                        WP
                                                                              Initial   Ref
   a. Transaction-level accounting records supporting Federal
      expenditures claimed on the FFR for the SIF grant.

   b. Transaction-level accounting records supporting match
      expenditures claimed on the FFR for the SIF grant.

   c. Reconciliations between Federal accounting records and FFRs for
      the SIF grant.

   d. Reconciliations between match accounting records and FFRs for
      the SIF grant.

   e. Organization charts for each year of the period under review.

   f.   FFRs and Financial Cash Transaction Reports (FCTRs) for the
        SIF grant for the period covered by these procedures.

   g. Subgrantee budgets and award documents.

   h. OMB Circular A-133 reports and management letters for the
      grantee and all subgrantees for the two most recent fiscal years.

   i.   Documentation of grantee monitoring visits.

   j.   List of all site visits performed and related subgrantee monitoring
        reports for the two most recent program years.

   k. Accounting policies and procedures, including travel policies.

   l.   Schedule of amounts awarded and expended by subgrantee by
        program year, as well as subgrantee requests for reimbursement.

   m. Subgrantee agreements, including agreements for contributing
      cash match.

   n. Negotiated Indirect Cost Rate Agreement (NICRA) with its
      Cognizant Federal agency.

   o. Comparison of actual costs to budget for the most current FFR.
      Including mapping of budget line items to general ledger
      accounts.

7. Read and become familiar with the Corporation’s Civil Rights / Equal
   Opportunity Requirements, found on the Corporation’s website:
   http://www.americorps.gov/for_organizations/funding/eo_requiremen
   ts.asp



                                                1-2
                                                                                         WP
                                                                               Initial   Ref
       a. Grant Program Civil Rights Policy

       b. Non-Harassment Guidelines

       c. Acceptable Interview Questions

       d. Disability Law

       e. Accessibility Guidelines

       f.   Non-Discrimination Guidelines

       g. Legal Responsibilities Presentation

       h. Part 1203 – Non–discrimination in Federally Assisted Programs

       i.   Part 1232 – Non–discrimination on Basis of Handicap in
            Programs Receiving Federal Financial Assistance

B. Basic Understanding of the Grantee

   1. Determine if the grantee or grantee partner is within a state agency
      that is responsible for financial reporting or other management
      controls.

   2. Identify significant transaction cycles (disbursements, timekeeping,
      payroll, and drawdowns).

   3. Obtain and document an understanding of the significant transaction
      cycles based on discussion with appropriate personnel and review of
      policy and procedure manuals.

   4. Document how claimed staff labor charges are supported (for
      example, by time-and-attendance records, certifications, or other
      allocation methods sufficient to meet requirements of OMB Circulars
      A-87 or A-122, as appropriate; or by budgeted percentages or other
      estimates).

   5. Determine the basis for the grantee’s indirect costs claimed. Verify
      that it is in accordance with its NICRA and the approved budget
      narrative.

   6. Determine if the agency responsible for financial reporting (or the
      grantee or grantee partner itself, if applicable) was audited by other
      state or Federal agencies.

       a. Review the audit reports and determine if supporting workpapers
          should be reviewed.



                                                   1-3
                                                                                        WP
                                                                              Initial   Ref

       b. Obtain and review all relevant reports and workpapers and
          document any weaknesses affecting material transaction cycles
          that should be tested or followed-up as necessary.

   7. Determine performance measures

       a. Review the grantee application and determine if it includes
          evaluation measures on one or more performance indicators. If
          so, determine what measures have been adopted and whether the
          application narrative sets forth the method to be used for
          measuring the extent of compliance.

       b. Briefly describe the measures and the related performance
          criteria.

C. OMB Circular A-133 Audit Coverage

   1. Determine if the grantee has been audited as required by OMB
      Circular A-133 for the period covered by these procedures.

   2. Review OMB Circular A-133 reports to determine if the SIF grant
      was considered a major program for purposes of testing compliance
      with specific regulations and terms and conditions of the grant.

   3. If the SIF grant was audited as a major program, obtain from the
      grantee the contact name and telephone number of the auditor
      responsible for the grantee’s OMB Circular A-133 audit. Contact the
      auditor to schedule a review of workpapers supporting OMB Circular
      A-133 audits for the past two years.

   4. Review the OMB Circular A-133 workpapers and summarize the
      scope and results of all testing related to the SIF grant. Notify the
      OIG of issues that may affect planning.

   5. If the SIF grant was not tested as a major program, determine if
      amounts reported on the OMB Circular A-133 reports appear
      reasonable when compared to related FFRs or other financial reports.
      Consider timing differences in the analysis.

   6. Identify any internal control or compliance findings noted in the
      OMB Circular A-133 reports or management letters that could affect
      the SIF grant. Develop proposed procedures to address these findings
      in the planning memorandum.




                                                   1-4
                                                                                          WP
                                                                                Initial   Ref

D. Claimed Costs

   1. Determine claimed Federal costs for the agreed-upon procedures
      period by calculating the difference between the cumulative Federal
      expenditures balance reported on the FFR submitted at the end of the
      agreed-upon procedures period and the cumulative Federal
      expenditure balance reported on the FFR submitted prior to the start
      of the agreed-upon procedures period.

   2. Determine claimed match costs for the agreed-upon procedures
      period by calculating the difference between the cumulative match
      expenditures balance reported on the FFR submitted at the end of the
      agreed-upon procedures period and the cumulative match expenditure
      balance from the FFR submitted prior to the start of the agreed-upon
      procedures period.

   3. Verify reconciliation amounts for the latest FFR obtained in step A. 6.
      c. If the grantee reconcilations are not available, reconcile claimed
      Federal costs for the agreed-upon procedures period for each grant to
      the grantee’s supporting accounting records.

   4. Verify reconciliation amounts for the latest FFR obtained in step A. 6.
      d. If the grantee reconcilations are not available, reconcile claimed
      match costs for the agreed-upon procedures period for each grant to
      the grantee’s supporting accounting records.

   5. For a sample of subgrantees for the agreed-upon procedures period,
      tie the total amount of Federal expenditures reported on the grantee’s
      FFR to the total amount paid by the grantee per its accounting records
      and the drawdown schedule. Identify and analyze material variances.
      Consider materiality and use judgment to determine the number of
      subgrantees to select for this test.

E. Understanding the Grantee’s Subgrantee Monitoring Process

   1. Discuss with grantee management the process used to ensure that
      subgrantee financial and project management systems comply with all
      Corporation and OMB requirements, and how the organizational
      structure supports this process. The process should include
      procedures to provide record retention and reporting guidance to
      subgrantees.

   2. Discuss with grantee management the process used to evaluate and
      monitor each subgrantee. Document this process, highlighting key
      controls, personnel who perform key tasks, and the documentation
      examined and maintained.




                                                  1-5
                                                                                        WP
                                                                              Initial   Ref
3. Determine if the grantee made site visits to its subgrantees in
   accordance with its policy. Review site visit documentation for
   adequacy.

4. Obtain files for subgrantees that received a site visit. Other than site
   visits, determine if additional procedures were performed and
   documented to assess financial and programmatic compliance and
   related controls at these sites.

5. Document the grantee’s procedures to ensure adequate and timely
   financial reporting:

    a. Determine if subgrantees submitted financial reports and FFRs as
       required and on a timely basis.

    b. Determine what procedures are performed, if any, by the grantee
       to determine the accuracy and validity of information reported in
       the financial reports and FFRs.

    c. Verify that all rates were in accordance with the NICRAs. If they
       were not, determine how the grantee determines reasonableness
       of indirect costs for each subgrantee.

    d. Determine what action the grantee takes to follow up on missing
       FFRs and enforce timely submission. If FFRs were late, were
       waivers given, or did policy permit? Why were they late, and if
       no action was taken, why?

6. Document the grantee’s procedures to ensure compliance with
   matching requirements (Serve America Act SEC. 198K. 42 U.S.C.
   12653k):

    a. Determine if procedures are in place to ascertain if the subgrantee
       has met its matching funds criteria.

    b. Determine what actions are taken by the grantee if matching
       requirements are not met.

    c. Determine what actions are taken by the grantee to ensure that
       matching costs are allowable. (State & Local 45 CFR §2541.240
       and Non-Profit & Higher Ed 45 CFR §2543.23)

7. Document the grantee’s procedures to ensure adequate feedback and
   evaluation:

    a. Determine if formal program evaluations are completed and
       documented for each subgrantee.




                                                 1-6
                                                                                          WP
                                                                                Initial   Ref
       b. Determine procedures used by the grantee to obtain and review
          all applicable audit reports and follow up on relevant weaknesses
          cited in audit reports and management letters.

       c. Identify subgrantees that appear to meet the OMB Circular A-133
          reporting threshold based on reviews of FFRs or Federal Review
          Clearinghouse Data Collection Forms, or knowledge of the
          subgrantee. Explain any differences from the grantee list and
          other records obtained and reviewed. Document how the grantee
          obtains A-133 reports in a timely manner, verifies expenditures
          reported in the Schedule of Expenditures of Federal Awards
          (SEFA), and obtains management letters. (American Recovery
          and Reinvestment Act (ARRA) grant expenditures should be
          segregated from non-ARRA expenditures on the SEFA.)

       d. Determine if the grantee monitors the financial effectiveness of
          its subgrantees.

   8. Determine if the grantee identified deficiencies during subgrantee site
      visits. Select a sample of these subgrantees to determine the
      adequacy of procedures in place to ensure that corrective action was
      taken on these deficiencies.

   9. For the sample of subgrantees, determine if the evaluation file
      contains information on reported accomplishments. Determine if
      these results were considered during the grant renewal and pre-
      selection processes.

   10. Prepare an overall assessment of the grantee’s subgrantee monitoring
       practices. Consider assessment results in determining agreed-upon
       procedures for the grantee and subgrantees.

F. Subgrantee Sample Selection

   1. Identify subgrantees whose SIF grants have been subjected to OMB
      Circular A-133 audits during the period covered by these procedures:

       a. Review the OMB Circular A-133 reports and determine if SIF
          subgrants were considered major programs.

       b. Review the OMB Circular A-133 reports and related management
          letters. Identify any internal control and compliance findings that
          could affect the SIF grant.

   2. Review the grantee’s site visit or monitoring reports for each
      subgrantee and document weaknesses and risk areas identified.




                                                  1-7
                                                                                          WP
                                                                                Initial   Ref
   3. If applicable, review subgrantee requests for reimbursement and any
      documentation included with the requests.

   4. Select a sample of subgrantees that will be submitted in the planning
      memorandum for agreed-upon procedures testing. Use risk-based
      selection, including:

       a. Subgrant size.

       b. Review of subgrantee site visit or monitoring reports.

       c. Review of available subgrantee OMB Circular A-133 reports.

       d. Interviews with program managers responsible for subgrantee
          monitoring.

       e. Interviews with Corporation grant and program officers.

G. Planning Memorandum and Proposed Agreed-Upon Procedures

   1. Prepare a planning memorandum that includes, at a minimum, the
      following:

       a. Background information on the grantee, including full address
          and phone number. Include website URL, if applicable.

       b. An explanation of any changes added to or deleted from the
          original statement of work.

       c. A summary of issues identified during the planning phase that
          affect the grantee or any of the subgrantees.

       d. A summary table of information gathered on the subgrantees
          detailing subgrantee size, OMB Circular A-133 coverage,
          findings, monitoring issues, and issues identified by program
          managers.

       e. An explanation of which subgrantees were selected for testing
          and why, and an explanation of why the other subgrantees were
          not selected for testing. Include names of the auditors assigned to
          each subgrantee.

       f.   A summary schedule of compensation for the grantee and
            subgrantee senior positions.

       g. Updated milestones.




                                                  1-8
                                                                                     WP
                                                                           Initial   Ref
2. Modify the standard Grantee Testing agreed-upon procedures (using
   track-changes) based on the planning phase work.

3. Modify the standard Subgrantee Testing agreed-upon procedures
   (using track-changes) based on the planning phase work. Prepare a
   separate workplan for each subgrantee detailing, to the extent
   possible, specific procedures to be performed and sample sizes.

4. Submit the planning memorandum along with the grantee and
   subgrantee workplans to the OIG Audit Manager for review and
   concurrence.

5. Schedule and conduct the planning conference with the OIG.

6. Coordinate the date for the entrance conference with the grantee, the
   OIG, and the Office of Grants Management (OGM) audit liaison.
   Discuss possible dates for performing testing at the grantee and
   subgrantee locations. Coordinate the agenda with the OIG. Invite the
   Chairman of the grantee’s Board or Audit Committee to attend.
   Encourage the grantee to invite the selected subgrantees. The OIG
   will disseminate the agenda to the Corporation representatives.




                                              1-9
                                                                                            WP
                                                                                  Initial   Ref

                         II.   GRANTEE TESTING

A. Cost Testing

   1.   Labor Costs

        a. Using the detailed accounting records, select a random pay period
           or pay periods and identify all employees whose Federal and
           match labor costs were charged to the SIF grant in that period.

             1) Based on the planning memorandum, evaluate the
                reasonableness of compensation for senior positions using
                compensation surveys for similar organizations.

        b. Trace labor charges to labor distribution reports or payroll
           records.

        c. Calculate the percentage of the employees’ time charged to the
           SIF grant for the sampled pay periods.

        d. Confirm that the percentage charged for each employee is based
           on timesheets or periodic certifications in compliance with
           applicable cost principles.

             1) Verify that the time-and-attendance record is properly
                completed.

        e. If costs were not based on the method required by the applicable
           OMB Cost Circular, interview employees whose time was
           charged and obtain estimates of the percentage of effort expended
           on their other activities, including administration and fundraising.

             1) Compare estimated effort to percentage of time charged. If
                percentages do not agree, document the discrepancy and
                question excess charges to the SIF grant, if they can be
                calculated. If amounts cannot be calculated, include a
                recommendation that the Corporation work with the grantee
                to calculate questioned costs resulting from erroneous charges
                and lack of adequate documentation.

        f.   Summarize results of procedures performed.

             1) Discuss testing results with the OIG Audit Manager and
                determine if additional procedures will be performed.

             2) Quantify questioned costs and the associated indirect costs.



                                                    2-1
                                                                                        WP
                                                                              Initial   Ref

        3) Report all exceptions noted. Identify the condition, cause,
           criteria, and effect of each finding. Prepare a
           recommendation for corrective action for each finding.

2. Fringe Benefits

   a. Review the grantee’s NICRA to determine the required treatment
      of fringe benefits.

   b. Verify that Federal and match fringe benefits are claimed in
      accordance with the NICRA.

   c. If the grantee uses a rate to allocate Federal and match fringe
      benefits, obtain a schedule or invoices from the grantee showing
      fringe benefits provided to employees and related percentages.

   e. Using the grantee’s financial statements or accounting records,
      calculate the percentage of Federal and match fringe benefits to
      labor costs. Compare the calculated percentage to the rate
      charged to the grant.

   f.   If the rates are not within four percentage points of each other or
        a percentage cannot be calculated, obtain a schedule from the
        grantee showing fringe benefits provided to employees and the
        related estimated percentage. Compare the rate estimated to the
        actual rate charged, and obtain explanations for variances.
        Calculate questioned costs related to all variances.

   g. If the grantee does not use a fringe benefit rate, identify the basis
      for Federal and match fringe benefits charged to the SIF grant.
      Analyze these costs for reasonableness by reviewing the grant
      budget and accounting records.

   h. Summarize results of procedures performed.

        1) Discuss testing results with the OIG Audit Manager and
           determine if additional procedures will be performed.

        2) Quantify questioned costs and the associated indirect costs.

        3) Report all exceptions noted. Identify the condition, cause,
           criteria, and effect of each finding. Prepare a
           recommendation for corrective action for each finding.

3. National Service Criminal History Checks




                                                2-2
                                                                                       WP
                                                                             Initial   Ref
   a. Determine if all grant-funded staff (Federal and match) received
      National Service Criminal History Checks in accordance with
      CFR requirements (45 CFR sections 2540.200 – 2540.207).

       1) Confirm that the grantee conducted state criminal registry
          searches and National Sex Offender Public Registry
          (NSOPR) searches on grant-funded staff (Federal and match).

       2) When final regulations are implemented by the Corporation,
          confirm that the grantee conducted FBI fingerprint searches
          on grant-funded staff (Federal and match) who were
          employed on or hired on or after 4/21/11 and who had
          periodic and episodic contact with children and vulnerable
          populations. Grantees have 60 days after final regulations are
          issued to implement the FBI fingerprint searches. Final
          regulations have not yet been issued @ 11/14/11.

       3) Confirm that when the grantee conducted state criminal
          registry searches, it searched state criminal registry databases
          recognized by the Corporation in the state where the
          employee works and resided at the start of employment.

       4) Confirm that the grantee conducted NSOPR searches using
          the Department of Justice’s National Sex Offender Public
          Registry (www.nsopr.gov).

       5) If the grantee did not conduct National Service Criminal
          History Checks in accordance with Corporation regulations,
          determine if the grantee submitted and obtained Corporation
          approval for an alternative search protocol.

   b. If the grantee did not perform required checks or obtain an
      approved alternative search protocol, question all salary, benefit,
      and associated indirect costs for the grant-funded staff (Federal
      and match).

4. Other Direct Costs

   a. Select a representative sample of at least 10 Federal expenditures
      and at least 10 match expenditures from the accounting detail for
      the SIF grant. Verify that each sampled expenditure was:

       1) Incurred during the grant period.

       2) Adequately supported.

       3) Charged to the correct project and consistent with the
          program description in the grant application.



                                               2-3
                                                                                      WP
                                                                            Initial   Ref

       4) Included in the original or amended budgets.

       5) Allowable in accordance with applicable cost principles.

       6) In compliance with the grantee’s travel policies or, absent
          policies, with Federal Travel Regulations.

       7) Either specifically included in the approved budget or
          subsequently approved in writing by the Corporation prior to
          purchase (for equipment or supplies costing $5,000 or more).

       8) Verifiable from recipient records. Records should be
          descriptive enough to determine the sources and individual
          match amounts.

       9) Not included as a contribution for any other Federally assisted
          program.

       10) Not paid by the Federal government under another award,
          except where authorized by Federal statute.

       11) Not in-kind match. SIF Cooperative Agreement Terms and
          Conditions require all match costs to be cash match.

   b. Summarize results of procedures performed.

       1) Discuss testing results with the OIG audit manager and
          determine if additional procedures will be performed.

       2) Quantify questioned costs and associated indirect costs.

       3) Report all exceptions noted. Identify the condition, cause,
          criteria, and effect of each finding. Prepare a
          recommendation for corrective action for each finding.

5. Indirect Costs




                                              2-4
                                                                                         WP
                                                                               Initial   Ref
The Final Notice of Funds Availability states that applicants with
approved indirect cost rates for Federal grants must use those rates for any
indirect costs they include in their budgets. The Corporation will work
with applicants selected for award who do not have approved Federal
indirect cost rates to help them develop and obtain approval for their
rates.

The SIF Cooperative Agreement Terms and Conditions state that
reimbursement for indirect costs, general and administrative costs,
overhead, or any similar cost rate-type agreement, will be at the rate(s)
and on the base(s) specified in the approved award budget. These
amounts are subject to finalization by the Cognizant Federal agency or the
Corporation. Any provisional rate(s) is subject to downward adjustment
only under this award. Accordingly, final approved rate(s) charged to this
award may not exceed the maximum provisional rate(s). If the Cognizant
Federal agency or the Corporation does not approve a final rate, the
maximum provisional rate will be considered the final rate.

    a. Review approved grant budget narratives and identify the rate(s)
       and base(s) specified for Federal and match indirect costs.

    b. Review the copy of the NICRA obtained during planning and
       identify whether the rate used in the budget was a provisional rate
       or a final rate.

    c. Interview grantee personnel to gain an understanding of how the
       grantee ensures the appropriate indirect cost rate is charged to the
       SIF grant.

    d. Verify that the indirect cost rates were applied to the correct
       Federal and match base costs.

    e. Verify that final indirect rates were used to calculate indirect
       costs and that the final approved rates do not exceed the
       maximum provisional rate. (If the Cognizant Federal agency or
       the Corporation does not approve a final rate, the maximum
       provisional rate will be considered the final rate.)

    f.   Verify that downward adjustments were made when final rates
         were less than provisional rates.

    g. Recalculate allowable Federal and match indirect costs based on
       the application of the correct indirect cost rate to the correct base
       costs.

    h. Summarize results of procedures performed.




                                                 2-5
                                                                                          WP
                                                                                Initial   Ref
           1) Discuss testing results with the OIG Audit Manager and
              determine if additional procedures will be performed.

            2) Quantify questioned costs and associated indirect costs.

            3) Report all exceptions noted. Identify the condition, cause,
               criteria, and effect of each finding. Prepare a recommendation
               for corrective action for each finding.

B. Compliance Testing

   1. Record Retention

        a. Confirm that the grantee has a written policy to retain supporting
           documents for Corporation grants for three years from submission
           date of the final FFR.

   2.   Programmatic and Budget Changes

        a. Determine if the grantee obtained prior written approval from the
           Corporation’s SIF Program Office and the Office of Grants
           Management before:

            1) Making changes in the scope, objectives, or goals of the
               grantee’s program, whether or not they involve budgetary
               changes.

            2) Entering into subgrants or contracts for SIF activities which
               had not been previously identified or included in the
               approved application budget.

            3) Making changes in deadlines identified in the SIF
               Cooperative Agreement Terms and Conditions.

        b. Determine if the grantee obtained prior written approval of the
           Corporation’s Office of Grants Management before amending the
           approved budget in any of the following ways:

            1) Incurring specific costs requiring prior approval under OMB
               Circulars A-21, A-87, or A-122. Examples include overtime
               pay, rearrangement and alteration costs, and pre-award costs.

            2) Purchasing equipment over $5,000 using SIF grant funds,
               unless specified in the approved application and budget.




                                                   2-6
                                                                                     WP
                                                                           Initial   Ref
       3) Changing cumulative and/or aggregate budget line items that
          amount to 10 percent or more of the total budget. (The total
          budget includes both Corporation and grantee shares.
          Grantees may transfer funds among approved direct cost
          categories when the cumulative amount of such transfers does
          not exceed 10 percent of the total budget).

3. Staffing and Management Changes

   a. Determine if the grantee notified the Corporation of any change
      in staffing of any key position included in whole or in part as a
      Federal or match cost in the award budget.

   b. Determine if the grantee notified the Corporation of any change
      in any positions that are not included in the approved budget but
      involve leadership of the grantee.

   c. Determine if the grantee notified the Corporation of any changes
      in the senior leadership of the grantee.

4. Reporting

   a. Determine if the grantee submitted FFRs by the due dates
      specified in the SIF Cooperative Agreement Terms and
      Conditions (or as extended by the Corporation). Cite as
      exceptions only those FFRs submitted more than five calendar
      days after their due date.

   b. Determine if the grantee submitted a final FFR within 90 days of
      completion, grant period expiration, or date on the Notice of
      Grant Award (NGA) project end date. Cite as exceptions only
      those final FFRs submitted more than five days after the 90-day
      period.

   c. Determine if the grantee submitted quarterly progress reports on
      the specific measures outlined in the grantee’s application
      narrative and other measures established by the Corporation in
      consultation with the grantee, by the due dates specified in the
      SIF Cooperative Agreement Terms and Conditions (or as
      extended by the Corporation).

   d. Verify that the reports include: a budget report for the completed
      budget period; narrative analysis of the budget report, explaining
      differences between budgeted and actual activities and costs by
      funding source; progress towards performance goals and any
      supporting data and methodology; analysis of sub-application
      progress and performance measures; and discussion.




                                              2-7
                                                                                       WP
                                                                             Initial   Ref
5. Program Income

   Income, including any fees for service earned as a direct result of the
   Cooperative Agreement-funded program activities during the award
   period, must be retained by the awardee and used to finance the
   Cooperative Agreement’s non- Corporation share. Further, program
   income earned in excess of the amount needed to finance the awardee
   share must be added to funds committed to the project by the
   Corporation and the awardee and used to further expand eligible
   program activities and objectives.

   a. Review the program application narrative and grant budget
      narrative to determine if program income, including any service
      fees earned as a direct result of Cooperative Agreement-funded
      program activities during the award period, was budgeted or
      discussed.

   b. If program income was budgeted or discussed, obtain an
      accounting report that identifies income actually earned.

   c. Compare program income earned to the amount of claimed cash
      match. Identity any instances in which earned income exceeds
      cash match.

   d. If earned income exceeds match, determine what it was used for
      and whether it was reported on Line 10L (Total Federal Program
      Income Earned), Line 10N (Program Income Expended in
      Accordance with the Addition Alternative), and on Line 10O
      (Unexpended Program Income) of the FFR. Call the OIG audit
      manager to discuss.

6. Advance Payments or Drawdowns

   a. Determine if advance payments or drawdowns were based on
      actual and immediate cash needs. (For drawdowns, compare
      drawdowns from inception of the grant to the most recent FFR).

   b. Determine if advance funds were deposited in interest-bearing
      accounts, unless an exception to this requirement applies.

   c. Determine if earned interest greater than $250 ($100 if state or
      local government) was remitted as required.

7. Summarize results of procedures performed.

   a. Discuss testing results with the OIG Audit Manager and
      determine if additional procedures will be performed.




                                               2-8
                                                                                            WP
                                                                                  Initial   Ref
       b. Report all exceptions noted. Identify the condition, cause,
          criteria, and effect and prepare a recommendation for corrective
          action for each finding.

C. Social Innovation Compliance Testing

   1. Matching Funds for Grantees

       a. Confirm that match costs provided the grantee were at least 50
          percent of total funds provided under the grant.

       b. Confirm that the grantee provided the matching funds in cash.

       c. Confirm that the matching funds were provided from state, local,
          or private sources, including state or local agencies, businesses,
          private philanthropic organizations, or individuals.

       d. In cases in which a state commission, a local government office,
          or both are a part of the eligible entity, confirm that the state
          commission, the local government office, or both contributed at
          least 30 percent but no more than 50 percent of the matching
          funds.

       e. Inquire of the grantee to determine if the entity was eligible for a
          50 percent reduction of the matching requirements. The
          Corporation may reduce the matching funds required by 50
          percent for an eligible entity serving a community (such as a rural
          low-income community) if the eligible entity can demonstrate
          that the area is significantly philanthropically underserved.


   2. Subgrants

       a.    Confirm that the grantee awarded subgrants to eligible entities on
            a competitive basis.

       b. Confirm that the eligible entities selected for subgrants were:

            1) Community organizations serving low-income communities
               within the specific local geographical area described in the
               eligible entity’s application, or

            2) Community organizations addressing a specific issue area
               described in the eligible entity’s application, in low-income
               communities in geographical areas described in the
               application.




                                                   2-9
                                                                                      WP
                                                                            Initial   Ref
c. Confirm that subgrants were for periods of not less than three and
   not more than five years, and if renewed for such periods,
   confirm that the amounts were not less than $100,000 per year.

d. Confirm that at least 80 percent of the Federal share was awarded
   to subgrantees. The balance may go toward the intermediary’s
   program support costs, including evaluation, knowledge
   management, and SIF implementation (Notice of Funds
   Availability).

e. Confirm that subgrantees submitted applications to the grantee
   and confirm that the application contained information required
   by the grantee, including:

    1) A description of the initiative the community organization
       carries out and plans to replicate or expand, or of the new
       initiative the community organization intends to support
       using funds received from the eligible entity, and how the
       initiative relates to the issue areas in which the eligible entity
       has committed to work in the eligible entity’s application.

    2) Data on the measurable outcomes the community
       organization has improved, and information on the
       measurable outcomes the community organization seeks to
       improve by replicating or expanding a proven initiative or
       supporting a new initiative. The measurable outcomes shall
       be among the measurable outcomes that the eligible entity
       identified in its application.

    3) An identification of the community in which the community
       organization proposes to carry out an initiative, located in the
       local geographical area described in the eligible entity’s
       application.

    4) A description of the evidence-based decision-making
        strategies the community organization uses to improve the
        measurable outcomes, including:

        a) Use of evidence produced by prior rigorous evaluations
           of program effectiveness, including, where available,
           well-implemented randomized controlled trials; or

        b) A well-articulated plan to conduct, or partner with a
           research organization to conduct, rigorous evaluations to
           assess the effectiveness of initiatives addressing national
           or local challenges.




                                             2-10
                                                                                       WP
                                                                             Initial   Ref
            c) A description of how the community organization uses
               data to analyze and improve its initiatives.

        5) Specific evidence of how the community organization will
           meet the requirements for providing matching funds.

        6) A description of how the community organization will sustain
           the replicated or expanded initiative after the conclusion of
           the subgrant period.

        7) Any other information the grantee may require, including
           information necessary for the grantee to fulfill its subgrantee
           selection requirements.

3. Matching Funds for Subgrantees

   a. Confirm that the grantee did not make a subgrant to a community
      organization unless that organization agreed to provide, on an
      annual basis, at least 50 percent of total funds provided under the
      subgrant.

   b. If the community organization failed to make such matching
      funds available for a fiscal year, confirm that the grantee did not
      make payments for the remaining fiscal years of the subgrant
      period.

   c.    Confirm that the community organization provided the matching
        funds in cash.




                                               2-11
                                                                                      WP
                                                                            Initial   Ref

                     III.   SUBGRANTEE TESTING

A. Preliminary Work

   1. Contact the subgrantee to schedule an entrance conference and
      fieldwork. Notify the grantee of the dates and times for each
      subgrantee entrance conference.

   2. Request that the following be available (in electronic format if
      available) at the entrance conference, or sooner if possible:

       a. Transaction-level accounting records supporting Federal
          expenditures claimed on FFRs.

       b. Transaction-level accounting records supporting match
          expenditures claimed on FFRs.

       c. Reconciliations between Federal accounting records and FFRs.

       d. Reconciliations between match accounting records and FFRs.

       e. Supporting documentation for claimed Federal and match costs.

       f.   NICRA.

       g. Comparison of actual cost to budget, including mapping of
          budget line item to general ledger account.

B. General Testing

   1. Reconciliation to Subgrantee Accounting Records

       a. Obtain transaction-level accounting records supporting Federal
          and match expenditures claimed.

       b. Identify instances in which grant costs (Federal share or match
          costs) are not segregated in the accounting system or are
          commingled with other programs.

       c. Obtain reconciliation between accounting records and claimed
          costs. Obtain explanations for variances.

   2. Subgrantee Matching Requirements




                                                  3-1
                                                                                             WP
                                                                                   Initial   Ref
       a. Confirm that match costs provided by the subgrantee on an
            annual basis were at least 50 percent of total funds provided
            under the subgrant.

       b. If the subgrantee failed to make such matching funds available for
          a fiscal year, obtain an explanation and confirm that the grantee
          did not make payments for the remaining fiscal years of the
          subgrant period.

       c.   Confirm that the subgrantee provided the matching funds in cash.

C. Cost Testing

   1. Labor Costs

       a. Using detailed accounting records, select a random pay period or
          pay periods and identify all employees whose Federal and match
          labor costs were charged to the SIF grant in that period. Obtain
          an understanding of the basis for charging labor costs (i.e., budget
          or actual).

            1) Based on the planning memorandum, evaluate the
               reasonableness of compensation for senior positions using
               compensation surveys for similar organizations.

       b. Trace labor charges to labor distribution reports or payroll
          records.

       c. Calculate the percentage of the employees’ time charged to the
          SIF grant for the sampled pay period.

            1) Verify that the time-and-attendance record is properly
               completed.

       d. If labor costs were allocated based on budget percentages, obtain
          the SIF budget and assess whether labor costs were charged in
          accordance with the budget.

       e. Confirm that the percentage charged for each employee is based
          on or consistent with timesheets or periodic certifications in
          compliance with applicable cost principles.

       f.   If costs were not based on the method required by the applicable
            OMB Cost Circular, interview employees whose time was
            charged and obtain estimates of the percentage of effort expended
            on their other activities, including administration and fundraising.




                                                    3-2
                                                                                        WP
                                                                              Initial   Ref
        1) Compare estimated effort to percentage of time charged. If
           percentages do not agree, document the discrepancy and
           question excess charges to the grant, if they can be calculated.
           If amounts cannot be calculated, include a recommendation
           that the Corporation work with the grantee to calculate
           questioned costs resulting from erroneous charges and lack of
           adequate documentation.

   g.   Summarize results of procedures performed.

        1) Discuss testing results with the OIG audit manager and
           determine if additional procedures will be performed.

        2) Quantify questioned costs and the associated indirect costs.

        3) Report all exceptions noted. Identify the condition, cause,
           criteria, and effect of each finding. Prepare a recommendation
           for corrective action for each finding.

2. Fringe Benefits

   a. If the subgrantee uses a rate to allocate Federal and match fringe
      benefits obtain a schedule or invoices from the subgrantee
      showing fringe benefits provided to employees and related
      percentages.

   b. Using the subgrantee’s financial statements or accounting
      records, calculate the percentage of Federal and match fringe
      benefits to labor costs. Compare the calculated percentage to the
      rate charged to the grant.

   c. If the rates are not within four percentage points of each other, or
      a percentage cannot be calculated, obtain a schedule from the
      grantee showing fringe benefits provided to employees and the
      related estimated percentage. Compare the rate estimated to the
      actual rate charged, and obtain explanations for variances.
      Calculate questioned costs related to all variances.

   d. If the subgrantee does not use a fringe benefit rate, identify the
      basis for Federal and match fringe benefits charged to the grant.
      Analyze these costs for reasonableness by reviewing the SIF
      budget and accounting records.

   e.   Summarize results of procedures performed.

          1) Discuss testing results with the OIG Audit Manager and
             determine if additional procedures will be performed.




                                               3-3
                                                                                      WP
                                                                            Initial   Ref
       2) Quantify questioned costs and associated indirect costs.

       3) Report all exceptions noted. Identify the condition, cause,
          criteria, and effect of each finding. Prepare a
          recommendation for corrective action for each finding.

3. National Service Criminal History Checks

   a. Determine if grant-funded staff (Federal and match) received
      National Service Criminal History Checks in accordance with
      CFR requirements (45 CFR sections 2540.200 – 2540.207).

       1) Confirm that the subgrantee conducted state criminal registry
          searches and National Sex Offender Public Registry searches
          on grant-funded staff (Federal and match).

       2) When final regulations are implemented by the Corporation,
          confirm that the grantee conducted FBI fingerprint searches
          on grant-funded staff (Federal and match) who were
          employed on or hired on or after 4/21/11 and who had
          periodic and episodic contact with children and vulnerable
          populations. Grantees have 60 days after final regulations are
          issued to implement the FBI fingerprint searches. Final
          regulations have not yet been issued @ 11/14/11.

       3) Confirm that when the subgrantee conducted the state
          criminal registry searches, it searched state criminal registry
          databases recognized by the Corporation in the state where
          the employee works and resided at the start of employment.

       4) Confirm that the subgrantee conducted NSOPR searches
          using the Department of Justice’s National Sex Offender
          Public Registry (www.nsopr.gov).

       5) If the subgrantee did not conduct National Service Criminal
          History Checks in accordance with Corporation regulations,
          determine if it submitted and obtained Corporation approval
          for an alternative search protocol.

       6) If the subgrantee did not perform required checks or obtain an
          approved alternative search protocol, question all salary,
          benefit, and associated indirect costs for the grant-funded
          staff (Federal and match).

4. Other Direct Costs




                                               3-4
                                                                                  WP
                                                                        Initial   Ref
a. Select a representative sample of at least 10 Federal expenditures
   and 10 match expenditures from the accounting detail. If the
   accounting detail does not distinguish between Federal and match
   costs, select a representative sample of expenditures and identify
   the Federal and match amounts from the sample invoice. Verify
   that each sample expenditure was:

    1) Incurred during the grant period.

    2) Adequately supported.

    3) Charged to the correct project and consistent with the
       program description in the grant application.

    4) Included in the original or amended budgets.

    5) Allowable in accordance with applicable cost principles.

    6) Either specifically included in the approved budget or
       subsequently approved in writing by the Corporation prior to
       purchase (for purchases of equipment or supplies costing
       $5,000 or more).

    7) Verifiable from recipient records. Records should be
       descriptive enough to determine the sources and individual
       match amounts.

    8) Not included as contributions for any other Federally assisted
       program.

    9) Not paid by the Federal government under another award,
       except where authorized by Federal statute.

    10) Not in-kind match. SIF Cooperative Agreement Terms and
        Conditions require all match to be cash match.

b. Summarize results of procedures performed.

   1) Discuss testing results with the OIG Audit Manager and
      determine if additional procedures will be performed.

    2) Quantify questioned costs and associated indirect costs.

    3) Report all exceptions noted. Identify the condition, cause,
       criteria, and effect of each finding. Prepare a
       recommendation for corrective action for each finding.




                                           3-5
                                                                                           WP
                                                                                 Initial   Ref
   5. Indirect Costs

      a. Review approved subgrantee budget narratives and identify the
         rate(s) and base(s) specified for Federal and match indirect costs.

      b. Review a copy of the subgrantee’s NICRA and identify whether
         the rate used in the budget was a provisional or final rate.

      c. Interview subgrantee personnel to gain an understanding of how
         the subgrantee ensures the appropriate indirect cost rate is
         charged to the SIF grant.

      d. Verify that the indirect cost rates were applied to the correct
         Federal and match base costs.

      e. Verify that final indirect rates were used to calculate indirect
         costs and that the final approved rates do not exceed the
         maximum provisional rate. (If the Cognizant Federal agency or
         the Corporation does not approve a final rate, the maximum
         provisional rate will be considered the final rate.)

      f.   Verify that downward adjustments were made when final rates
           were less than provisional rates.

      g. Recalculate allowable Federal and match indirect costs based on
         the application of the correct indirect cost rate to the correct base
         costs.

      h. Summarize results of procedures performed.

           1) Discuss testing results with the OIG audit manager and
              determine if additional procedures will be performed.

           2) Quantify questioned costs and associated indirect costs.

           3) Report all exceptions noted. Identify the condition, cause,
              criteria, and effect of each finding. Prepare a
              recommendation for corrective action for each finding.

D. Budgetary and Programmatic Changes

   1. Determine if the subgrantee obtained prior written approval from the
      grantee:

      a. If changes occurred in the program staffing, scope or goals, and
         objectives.




                                                   3-6
                                                                                          WP
                                                                                Initial   Ref
       b. If the subgrantee entered into subgrants or contracted out any
          program activities funded by the grant that were not specifically
          identified in the approved application and grant.

   2. Determine if the subgrantee obtained prior written approval before
      deviating from the approved budget in any of the following ways:

       a. Budget transfers to absorb administrative costs above the amount
          specified in the approved budget.

       b. Changes requiring prior approval under OMB Circulars A-110 or
          A-102.

       c. Costs requiring prior approval under OMB Circulars A-21, A-87,
          or A-122.

       d. Purchases of equipment over $5,000 using grant funds, unless
          specified in the approved budget.

E. Reporting

   1. Determine if the subgrantee submitted FFRs as required by the
      grantee. Cite as exceptions only those FFRs submitted more than five
      days after their due date.

   2. Confirm that the subgrantee submitted Periodic Expense Reports
      (PERs) or other applicable financial reports as required by the
      grantee.

   3. If the program is complete, confirm that the subgrantee submitted a
      final PER or similar financial report as required by the grantee within
      90 days of completion. Cite as exceptions only those final FFRs
      submitted more than 5 days after the 90-day period.

F. Evaluation

   1. Confirm that the subgrantee has documented policies and procedures
      to internally track progress toward achieving program objectives and
      management effectiveness.

G. Project or Program Income

   1. Review the subgrant budget and budget narrative. If program income
      was budgeted or discussed, obtain an accounting report that identifies
      income actually earned. Compare this amount to the budgeted
      income and determine if budgeted income exceeds actual income by
      20 percent.




                                                  3-7
                                                                                            WP
                                                                                  Initial   Ref
   2. Compare program income earned to the amount of claimed cash
      match. Identity any instances in which earned income exceeds cash
      match.

H. Grant Payments

   1.    Determine if advance payments or drawdowns were based on actual
        and immediate cash needs. (For drawdowns, compare drawdowns
        from inception of the grant to the most recent FFR.)

   2. Determine if advance funds were deposited in interest-bearing
      accounts, unless an exception to this requirement applies.

   3.    Determine if earned interest greater than $250 ($100 if state or local
        government) was remitted as required.

I. Subgrantee Exit Conference

   1. Schedule the exit conference with the subgrantee. Invite the grantee to
      the exit conference and document the invitation in the workpapers.
      Provide the subgrantee and grantee with the findings to date in
      writing. The workpapers must include documentation of the
      notification and transmission of findings to the grantee and
      subgrantee.

        a. At the conclusion of fieldwork, provide an exception briefing to
           the subgrantee with full details of the exceptions (unless fraud is
           involved).

        b. Provide the grantee with full details of the exceptions (unless
           fraud is involved).

        c. If the review identified purported members who are not listed on
           the Corporation roster, or if the Corporation roster includes
           purported members who cannot be substantiated in subgrantee
           records, immediately provide this information and evidence to the
           OIG.

J. Grantee Monitoring of Subgrantees

   1. Determine if weaknesses and risk areas identified during the grantee’s
      monitoring site visits were resolved. If issues remain unresolved,
      document the reasons.

K. Summarize Results

   1. Summarize results of procedures performed.




                                                    3-8
                                                                                         WP
                                                                               Initial   Ref
2. Discuss testing results with the OIG audit manager and determine if
   additional procedures will be performed.

3. Report all exceptions noted. Identify the condition, criteria, cause, and
   effect of each finding. Prepare a recommendation for corrective
   action for each finding.




                                                3-9
                                                                                        WP
                                                                              Initial   Ref

                          IV.     REPORTING

A. Overview

   1. Coordinate with the OIG to confirm the report date, format, and
      contents.

   2. Prepare the draft report, to include a schedule of award(s), claimed
      and questioned costs, findings (including the elements of condition,
      criteria, cause, and effect, as applicable), and recommendations.

   3. Cross-reference the report to supporting workpapers. At a minimum,
      all dollar amounts and numeric values must be cross-referenced.

B. Quality Control

   1. Submit the draft report and workpapers to the quality control partner
      or through the quality control process.

   2. Following the quality control review, submit the report and
      workpapers to the OIG for review and approval.

C. Exit Conference

   1. In coordination with the OIG, schedule and conduct an exit
      conference.

       a. Invite the Chairman of the Board, the Audit Committee, or other
          group or individual charged with governance of the grantee /
          subgrantees.

D. Management Representations

   1. Obtain the management representation letter.

E. Final Report

   1. Prepare and submit the final report. Grantee responses and additional
      reviewer comments must be included separately for each finding.
      Include grantee and Corporation responses as appendices or
      attachments.




                                                  4-1
